                       U.S. Department of Agriculture

                          Office of Inspector General
                                    Southeast Region




             Audit Report

       Foreign Agricultural Service
Private Voluntary Organization Grant Fund
              Accountability




                               Report No. 07016-1-At
                                         March 2006
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250




March 15, 2006


REPLY TO
ATTN OF:       07016-1-At

TO:            Michael W. Yost
               Administrator
               Foreign Agricultural Service

ATTN:          Robert J. Huttenlocker
               Director, Compliance Review Staff

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Foreign Agricultural Service - Private Voluntary Organization Grant Fund
               Accountability


This report presents the results of our audit of the Foreign Agricultural Service’s internal controls
over private voluntary organizations operating food aid grants. Your written response to the
official draft report, dated January 18, 2006, is included as exhibit D, with excerpts of the
response and the Office of Inspector General’s (OIG) position incorporated into the Findings and
Recommendations section of the report, where applicable.

Your response generally agreed with OIG’s recommendations to strengthen agency monitoring
controls over food aid agreement operations and described your current efforts to implement the
report’s recommendations. Regarding the agreements of Winrock International Institute for
Agricultural Development (Winrock), you agreed to conduct a detailed review of Winrock’s
Ivory Coast agreement, but decided against seeking recovery of monetization proceeds lost by
Winrock during its food aid program in Angola.

We accept your management decisions on Recommendations 1a, 1d, 2, 3, 5, 7, 10, 11, and
15. We can accept your management decisions on Recommendations 1b, 1c, 1e, 4, 6, 8, 9, 12,
13, and 14 once we have been provided the information as outlined in the report sections, OIG
Position.
Michael W. Yost                                                                              2


In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including timeframes, to address the
recommendations for which a management decision has not been reached. Please note that the
regulation requires management decisions to be reached on all recommendations within a
maximum of 6 months from report issuance. Please follow your internal agency procedures in
forwarding final action correspondence to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit.
Executive Summary
Private Voluntary Organization Grant Fund Accountability (Audit Report No.
07016-1-At)

Results in Brief                     To avert famine and promote economic development, which may develop
                                     foreign markets for U.S. agricultural commodities, the U.S. Department of
                                     Agriculture (USDA) provides food aid to many countries worldwide. The
                                     Foreign Agricultural Service (FAS) administers these food aid programs,
                                     largely through grants to intermediaries known as private voluntary
                                     organizations (PVO)—charitable, non-profit organizations responsible for
                                     implementing USDA objectives abroad. In fiscal years (FY) 2002 and
                                     2003, FAS donated more than $1.3 billion in agricultural commodities and
                                     program funds to 108 PVOs operating in 169 countries. In order to evaluate
                                     FAS’ internal controls for ensuring that these PVOs use the donated
                                     commodities and funds in accordance with program regulations, the Office of
                                     Inspector General (OIG) reviewed 8 of the 108 PVOs awarded grant
                                     agreements. 1 Of almost 3 million metric tons (MT) shipped, we reviewed
                                     198,751 MT, or 7 percent; of $1.3 billion in total costs, we reviewed
                                     $87 million, or 7 percent.

                                     Although six of the eight PVOs generally complied with their agreements, we
                                     found that FAS’ controls for monitoring how PVOs implement their grant
                                     agreements are weak and cannot provide reasonable assurance that USDA’s
                                     program objectives are being met or that funds are spent appropriately. We
                                     concluded that due to these internal control weaknesses, one PVO—Winrock
                                     International Institute for Agricultural Development (Winrock)—was not
                                     held accountable for violations of its grant agreements leading to the loss of
                                     $2.2 million. Although FAS learned about possible grant irregularities in
                                     November and December 2000, it has still not completed a review of
                                     Winrock’s compliance with its grant agreements.

                                     FAS agreed in its response to an audit report issued by OIG in
                                     March 1999 to strengthen significant aspects of its management controls.
                                     However, we found that the agency did not implement corrective actions to
                                     several key recommendations. 2 FAS officials stated they have struggled to
                                     obtain adequate funding and staffing levels to be able to track and conduct
                                     adequate reviews of semiannual reports, but have been unable to meet the
                                     level of review recommended. Unless it carefully reviews PVO’s semiannual
                                     reports, FAS cannot be certain how program funds are being used or that
                                     PVOs are achieving the program goals specified in their grant proposals.



1
  These eight PVOs were selected judgmentally to include a wide variety of different organizations. See Scope and Methodology for a fuller statement of
how they were selected.
2
  “FAS Food for Progress Program PVOs Grant Fund Accountability,” OIG Audit Report No. 50801-6-At.

USDA/OIG-A/07016-1-At                                                                                                                          Page i
                                        Also, FAS did not conduct adequate onsite reviews of PVOs’ U.S.
                                        Headquarters. In response to OIG’s prior audit recommendation, FAS agreed
                                        to conduct thorough reviews of five to seven PVOs each year, but had only
                                        been able to conduct two to three reviews each year. The agency has also not
                                        been able to regularly review all problematic agreements. However, FAS has
                                        arranged for its Export Credits and Compliance Review Staff to combine
                                        their limited resources to increase the number of reviews conducted next
                                        year. These controls are important to identify and correct problems with
                                        ongoing food aid agreements.

                                        Finally, FAS continues to face a backlog of agreements to close. Unless an
                                        evaluation of the agreement or closeout review has been conducted for prior
                                        agreements, FAS is unable to confirm that a PVO has been compliant with
                                        past agreements or fairly judge whether the PVO has committed any
                                        violations under past agreements that would preclude a favorable
                                        consideration of the PVO for new programming.

                                        Had these controls been implemented, Winrock might have been prevented
                                        from violating its grant agreements, mismanaging program funds, and losing
                                        $2.2 million in food aid intended for the people of Angola and the Ivory
                                        Coast. In Angola, Winrock violated its grant proposal by keeping most
                                        (57 percent) of its program funds in kwanza—the highly unstable Angolan
                                        currency. When the value of that currency suddenly plummeted, Winrock lost
                                        a total of $1.4 million in grant funds. Since FAS was not receiving Winrock’s
                                        semiannual reports, the agency did not learn of this loss until more than a
                                        year afterwards. In the Ivory Coast, Winrock could not account for
                                        $773,587 of $3.4 million provided for its projects. Winrock employees
                                        alleged that the implementation of this agreement was characterized by fraud,
                                        waste, and abuse, but Winrock—even though it forced the resignation of its
                                        regional director—has never satisfactorily explained the loss of program
                                        funds or made the outcome of its internal investigation available to FAS. 3

                                        We identified four weaknesses FAS must correct to improve its
                                        administration of USDA food aid agreements. FAS needs procedures to:
                                        (1) confirm that PVOs have received their host government’s recognition
                                        before finalizing food aid agreements; (2) verify that PVOs have complied
                                        with financial requirements as specified in Federal regulations—such as
                                        opening separate bank accounts in-country to conduct grant program
                                        operations—prior to making funds and commodities available;
                                        (3) aggressively pursue grant funds lost due to a PVO’s mismanagement; and
                                        (4) review PVOs’ past performance before approving additional food aid
                                        agreements. Despite being aware of problems with Winrock’s projects in



3
    More detailed narratives of Winrock’s food aid agreements in Angola and the Ivory Coast are included in Finding 2.

USDA/OIG-A/07016-1-At                                                                                                    Page ii
                   Africa, FAS approved a third grant application for a project in Indonesia—
                   Winrock’s largest yet, involving almost four times the MT donated to
                   Angola.

                   We conclude that FAS must implement controls to strengthen its monitoring
                   of PVOs, including those it had agreed to implement in FY 2000. Without
                   these controls, USDA cannot provide reasonable assurance that its foreign aid
                   objectives are being met and that donated commodities are reaching the
                   people intended.

Recommendations
in Brief           FAS should implement management controls for reviewing semiannual
                   reports, conducting onsite reviews, and completing closeout reviews of all
                   food aid agreements.

                   FAS should strengthen its monitoring of PVO’s food aid agreements by
                   developing and implementing procedures to (1) confirm that PVOs have
                   received the recognition of their host government before agreements are
                   finalized; (2) verify that PVOs comply with all financial requirements before
                   they receive donated funds or commodities; (3) aggressively seek recovery of
                   grant funds lost due to PVO mismanagement; and (4) review PVOs’ past
                   performance as part of its application process for approving new food aid
                   agreements.

                   FAS should seek to recover the $2.2 million in program funds provided to
                   Winrock for projects in Angola and the Ivory Coast.

Agency Position    In her January 18, 2006, response, the FAS Administrator generally agreed
                   with OIG’s recommendations to strengthen the agency’s management
                   controls over its food aid agreements, and stated that efforts to implement
                   several of OIG’s recommendations are already well underway.

                   The agency agreed to conduct a detailed review of Winrock’s Ivory Coast
                   program by the end of FY 2006, and to timely review Winrock’s semiannual
                   reports on its Indonesian agreement. However, FAS attributed Winrock’s
                   losses of grant funds in Angola to the difficulties of operating in Angola and
                   to the foreign buyer’s breach of its sales contract with Winrock for the
                   Community Credit Corporation-donated commodities. The agency did not
                   hold Winrock responsible for losses of monetization proceeds during
                   Angola’s currency devaluation.

                   FAS’ responses are incorporated along with our positions into the Findings
                   and Recommendations section of the report. The complete FAS response is
                   included as exhibit D.



USDA/OIG-A/07016-1-At                                                                    Page iii
OIG Position       We generally agreed with FAS’ actions to strengthen its monitoring of food
                   aid agreements, asking for clarifying information only when necessary to
                   achieve management decision on the recommendations.

                   We agreed with FAS’ plans to conduct a detailed review of Winrock’s Ivory
                   Coast agreement and will await the results of that review to make a
                   determination on management decision.

                   However, we continue to believe that due to Winrock’s negligence, disregard
                   of its agreement terms, and regulatory violations, that FAS should recover the
                   lost monetization proceeds from Winrock’s Angola agreement.




USDA/OIG-A/07016-1-At                                                                    Page iv
Abbreviations Used in This Report

CARE
  Cooperative for Assistance and Relief Everywhere ........................................................................... 39
CCC
  Commodity Credit Corporation ............................................................................................................ 1
CFR
  Code of Federal Regulations................................................................................................................. 5
E&SPB
  Evaluation and Special Projects Branch ............................................................................................... 2
EC
  Export Credits ....................................................................................................................................... 1
FAS
  Foreign Agricultural Service................................................................................................................. 1
FFE
  Food for Education ............................................................................................................................... 1
FFP
  Food for Progress.................................................................................................................................. 1
FSA
  Farm Service Agency............................................................................................................................ 1
FY
  Fiscal Year ............................................................................................................................................ 1
MT
  Metric Ton ............................................................................................................................................ 1
NIST
  National Institute of Standards and Technology................................................................................... 9
OIG
  Office of Inspector General .................................................................................................................. 2
OMB
  Office of Management and Budget....................................................................................................... 8
PCI
  Project Concern International ............................................................................................................. 20
PPDED
  Program Planning, Development & Evaluation Division..................................................................... 2
PVO
  Private Voluntary Organizations........................................................................................................... 1
Treasury
  U.S. Department of Treasury .............................................................................................................. 37
USAID
  U.S. Agency for International Development ........................................................................................ 8
USDA
  U.S. Department of Agriculture............................................................................................................ 1
WFP
  World Food Program .......................................................................................................................... 42
Winrock
  Winrock International Institute for Agricultural Development ............................................................ 4
USDA/OIG-A/07016-1-At                                                                                                                            Page v
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Oversight of Foreign Food Aid Agreements ................................................................. 4

        Finding 1             FAS Needs to Improve Its Monitoring of Foreign Food Aid Agreements ............. 4
                                  Recommendation 1a....................................................................................... 10
                                  Recommendation 1b ...................................................................................... 11
                                  Recommendation 1c....................................................................................... 13
                                  Recommendation 1d ...................................................................................... 13
                                  Recommendation 1e....................................................................................... 14
                                  Recommendation 2 ........................................................................................ 15
                                  Recommendation 3 ........................................................................................ 15
                                  Recommendation 4 ........................................................................................ 16
                                  Recommendation 5 ........................................................................................ 17
                                  Recommendation 6 ........................................................................................ 17
        Finding 2             FAS Needs To Strengthen Controls Over PVOs’ Implementation of FFP
                              Agreements............................................................................................................ 18
                                  Recommendation 7 ........................................................................................ 27
                                  Recommendation 8 ........................................................................................ 28
                                  Recommendation 9 ........................................................................................ 29
                                  Recommendation 10 ...................................................................................... 30
                                  Recommendation 11 ...................................................................................... 31
                                  Recommendation 12 ...................................................................................... 31
                                  Recommendation 13 ...................................................................................... 34
                                  Recommendation 14 ...................................................................................... 35
                                  Recommendation 15 ...................................................................................... 35

General Comments ............................................................................................................................... 37

Scope and Methodology........................................................................................................................ 39

Exhibit A – Summary of Monetary Results ....................................................................................... 41
Exhibit B – Scope of Food Aid Programs – FY 2002......................................................................... 42
Exhibit C – Scope of Food Aid Programs – FY 2003......................................................................... 43
Exhibit D – Agency Response .............................................................................................................. 44


USDA/OIG-A/07016-1-At                                                                                                                       Page vi
Background and Objectives
Background                             The United States continues to be the largest donor nation to food relief
                                       organizations worldwide, donating about 60 percent of all global food aid in
                                       2002. As part of this effort to avert famine and offset nutritional deficiencies,
                                       the U.S. Department of Agriculture’s (USDA) food assistance programs help
                                       to feed over 10 million people in 50 to 80 countries each year. USDA
                                       provides food aid to foreign governments, private voluntary organizations
                                       (PVO), nonprofit organizations, cooperatives, and intergovernmental
                                       organizations through four programs: Title 1 of Public Law 480 4 , Food for
                                       Progress (FFP), Food for Education (FFE), and Section 416(b) Commodity
                                       Donations.

                                       The Foreign Agricultural Service (FAS) has the lead responsibility for
                                       managing these four USDA-administered food aid programs. Within FAS,
                                       Export Credits is responsible for food aid policy formulation and program
                                       administration. The Commodity Credit Corporation (CCC)—a wholly owned
                                       U.S. Government corporation staffed by USDA officials from FAS and the
                                       Farm Service Agency (FSA)—donates commodities for the foreign food aid
                                       programs. CCC enters into written program agreements with PVOs and other
                                       cooperating sponsors that incorporate the terms and conditions of the four
                                       program authorities.

                                       In fiscal years (FY) 2002 and 2003, USDA donated $1.3 billion in
                                       agricultural commodities to PVOs which, in turn, agreed to accomplish
                                       various program objectives in their host countries. Some of these
                                       commodities (29 percent) were directly distributed to the hungry; others
                                       (71 percent) were sold, or monetized, in order to finance other objectives,
                                       such as improving host countries’ agricultural infrastructure, expanding
                                       renewable sources of energy, and offering educational opportunities to young
                                       people.

                                       Exhibits B and C in this report provide a snapshot of the types of programs
                                       offered by FAS during FYs 2002 and 2003, including the number of PVOs
                                       receiving grant agreements, the metric tons (MT) of donated commodities
                                       approved for direct distribution or for monetization to provide local currency
                                       to fund programs, and the value of donated commodities, administrative
                                       funds, and transportation costs provided for the various programs.

                                       Food Aid Program Cycle—

                                       PVOs and other cooperating sponsors submit their food aid proposals, plans
                                       of operation, and detailed budget information to the Program Planning,

4
    Public Law 480, Title 1 emphasizes commercial market development and sustains ability through the use of long-term concessional food aid sales.

USDA/OIG-A/07016-1-At                                                                                                                           Page 1
                                     Development and Evaluation Division (PPDED) of FAS’ Export Credits.
                                     During our audit, PPDED was staffed by 30 FAS employees. The PPDED
                                     staff then reviews, evaluates, and ranks the food aid proposals to arrive at the
                                     final number of project plans to receive funding during the upcoming FY.
                                     PPDED also negotiates the food aid agreement terms with the applying
                                     organizations and works with FSA, CCC, and the Office of the General
                                     Counsel to finalize the agreement contracts and initiate agreement
                                     operations. FSA’s Commodity Operations staff handles the acquisition,
                                     procurement, storage, and distribution of the CCC-donated commodities to
                                     the foreign ports of the recipient countries.

                                     After agreement operations begin, the Evaluation and Special Projects
                                     Branch (E&SPB), a unit of PPDED, is responsible for monitoring the PVOs
                                     and other cooperating sponsors to ensure compliance with grant reporting,
                                     implementation, and financial requirements. E&SPB is staffed by 6 of
                                     PPDED’s 30 employees. Grant recipients are required to submit semiannual
                                     logistic and monetization reports to the FAS agricultural counselor or attaché
                                     in-country and to Export Credits. The logistics reports must include
                                     information concerning receipt and storage of commodities, details of any
                                     losses, records of distributions to recipients, and ending inventory balances.
                                     The monetization reports must include details of any sales of commodities or
                                     barter transactions, secured deposits of monetization proceeds in
                                     interest-bearing accounts in both local and U.S. currencies, disbursements
                                     from monetization proceeds, and an assessment of the monetization
                                     transaction’s impact on local country markets. These reports are required
                                     until all commodities have been distributed (direct distribution) or until all
                                     commodities have been sold and funds completely disbursed (monetization).

                                     In addition, all agreements must be fully evaluated prior to closure. In cases
                                     where CCC provides cash, CCC will not advance more than 85 percent of
                                     the cash. PVOs may request the remaining funds on a reimbursement basis
                                     prior to the closeout of the agreement. E&SPB confirms the receipt of all
                                     reports, determines whether a grant recipient has complied with the terms of
                                     the agreement, and ensures that all issues are resolved before approving the
                                     final 15-percent disbursement of grant funds. 5

Objectives                           In March 1999, OIG issued a report on FAS’ monitoring of PVOs operating
                                     FFP grants. 6 During the current audit, we evaluated FAS’ actions to address
                                     management control weaknesses identified in the 1999 audit. We also
                                     reviewed the food aid agreement activities of eight judgmentally selected
                                     PVOs operating food aid grants under USDA’s program authorities. Three of

5
  After the Office of Inspector General’s (OIG) audit fieldwork ended, Export Credits realigned its Programming Division, formerly named PPDED. One
result of that realignment was the dissolution of the Evaluation and Special Projects Branch (E&SPB). The functions and responsibilities of that branch
have now been folded into each of the Division’s three branches. Export Credits officials informed OIG they had retained a senior-level policy resource
analyst to develop policies and review actions to ensure consistent evaluation procedures.
6
  Audit No. 50801-6-At, issued March 31, 1999, “FFP Program, PVOs Grant Fund Accountability.”

USDA/OIG-A/07016-1-At                                                                                                                         Page 2
                   the PVOs were selected due to hotline complaints that reported violations of
                   PVOs’ agreements.

                   Our overall audit objective was to determine whether FAS’ internal controls
                   are sufficient to ensure that PVOs make appropriate use of program funds,
                   and efficiently and effectively operate food aid grants to achieve USDA
                   program objectives.

                   Specifically, we reviewed FAS’ internal controls and business processes for
                   evaluating grant proposals and awarding grant agreements, monitoring active
                   agreement operations, ensuring grantee compliance with agreement terms and
                   applicable laws and regulations, timely conducting final reviews and
                   closeouts of grant agreements, determining whether grantee programs
                   achieve program objectives, and measuring and reporting program results.




USDA/OIG-A/07016-1-At                                                                   Page 3
Findings and Recommendations
Section 1. Oversight of Foreign Food Aid Agreements

                                    Although FAS had agreed—in response to a 1999 OIG audit—to improve its
                                    monitoring of PVOs operating in foreign countries, we found that the agency
                                    did not implement several significant corrective actions, including
                                    strengthening its review of PVOs’ semiannual reports, increasing the number
                                    of onsite reviews of PVOs’ U.S. Headquarters, and completing closeout
                                    reviews of food aid agreements in a timely fashion. Without these
                                    improvements, FAS cannot reliably determine if PVOs are accomplishing the
                                    objectives of USDA’s food aid agreements. These weaknesses in FAS’
                                    system for monitoring PVOs were brought into sharp focus by the
                                    mismanagement of food aid agreements in Angola and the Ivory Coast by
                                    one PVO—Winrock International Institute for Agricultural Development
                                    (Winrock).

                                    Winrock is responsible for the loss of $2.2 million in benefits that never
                                    reached the people for whom they were intended. Had FAS implemented the
                                    corrective actions from the prior audit report as agreed, this misuse of
                                    program funds might have been avoided. In particular, Winrock did not
                                    submit semiannual logistics and monetization reports. Although FAS has
                                    always required the timely submission of all reports, the agency has not
                                    enforced this requirement on a consistent basis. These reports would have
                                    alerted FAS to Winrock’s operational difficulties in Angola and perhaps
                                    helped mitigate the loss of program funds. Along with suggesting several
                                    new controls to further strengthen FAS’ oversight of PVOs and to prevent
                                    similar incidents from recurring, we are recommending that FAS initiate
                                    steps to recover the $2.2 million lost due to Winrock’s mismanagement.


Finding 1                           FAS Needs to Improve Its Monitoring of Foreign Food Aid
                                    Agreements

                                    In response to an OIG audit report 7 issued in March 1999, FAS agreed to
                                    strengthen its oversight and monitoring of food aid agreement operations in
                                    foreign countries. More than 5 years later, FAS’ monitoring of food aid
                                    agreements remains weak. The agency has not placed sufficient priority on
                                    the monitoring process and has not assigned adequate staff resources to
                                    conduct the reviews. The review process was further weakened when FAS
                                    lost password access to the automated database it uses to perform and
                                    document reviews. Until it thoroughly and promptly reviews food aid
                                    agreements—both while they are underway and at their conclusion—FAS
                                    cannot determine whether PVOs are administering USDA-funded food aid
7
    “FAS FFP Program PVOs Grant Fund Accountability,” OIG Audit Report No. 50801-6-At.

USDA/OIG-A/07016-1-At                                                                                   Page 4
                                   programs in accordance with regulations and whether those programs achieve
                                   USDA’s food aid objectives. Also, FAS cannot make informed decisions
                                   about whether PVOs should be considered eligible for additional funding.

                                   USDA food aid agreements are usually administered in developing countries,
                                   where program commodities and administrative funds can, without proper
                                   monitoring, be vulnerable to loss. Following OIG’s previous audit, FAS
                                   agreed to improve its monitoring of food aid agreements by:

                                    •    Reviewing the semiannual logistics and monetization reports submitted
                                         by PVOs to ensure that USDA-donated commodities are properly
                                         distributed, or sold to run the program in the local currency (monetized);

                                    •    Conducting onsite reviews of accounting records, invoices, and other
                                         pertinent documents at PVOs’ U.S. Headquarters to verify information
                                         in the semiannual reports; and

                                    •    Completing closeout reviews of all food aid agreements to determine if
                                         sponsors have complied with the terms of their agreements and whether
                                         they should receive the final 15-percent disbursement of grant funds.

                                   FAS agreed that it would implement these corrective actions beginning with
                                   FY 2000 executed agreements. We found, however, that FAS has not
                                   successfully implemented these recommendations.

                                   FAS Did Not Always Receive and Review PVOs’ Semiannual Reports—

                                   CCC regulations require PVOs to submit semiannual logistics and
                                   monetization reports to FAS while food aid operations are underway. 8 By
                                   promptly reviewing PVOs’ semiannual reports, FAS can identify compliance
                                   problems and direct PVOs to resolve them before the agreement ends. We
                                   found, however, that FAS did not follow up with PVOs to obtain missing
                                   semiannual reports. For example, FAS was unaware that one PVO, Winrock,
                                   had experienced major problems in implementing its food aid agreement in
                                   Angola, as discussed in Finding 2. Although Winrock signed the agreement
                                   with FAS in August 1998, Winrock did not submit the required semiannual
                                   reports and FAS did not attempt to obtain them. FAS did not request the
                                   missing semiannual reports until July 2000 when Winrock requested its final
                                   15 percent distribution of grant funds. This was 23 months after the
                                   agreement was signed.

                                   We also found that FAS did not thoroughly review the semiannual reports it
                                   did receive until the PVOs had completed their overseas operations and the

8
 7 Code of Federal Regulations (CFR) 1499, “Foreign Donation Programs,” and 7 CFR 1599, “McGovern-Dole International FFE and Child Nutrition
Program.”

USDA/OIG-A/07016-1-At                                                                                                                 Page 5
                   agreements were ready for final closeout. Upon receiving the semiannual
                   reports, FAS analysts performed only cursory reviews, which were limited to
                   determining whether the PVOs reported any commodities or funds
                   remaining. If the reports indicated that PVOs had not distributed or sold all of
                   the donated commodities, the analysts simply filed the reports, without
                   reviewing the PVOs’ narrative descriptions of ongoing program operations.
                   These narrative descriptions contain valuable information for assessing
                   whether the PVOs are accomplishing agreement objectives and the needs of
                   food aid recipients are being met.

                   OIG reported the weaknesses in monitoring semiannual reports to FAS in our
                   March 1999 report. In April 2000, FAS responded, stating that budget and
                   human resource constraints were the cause of the timeliness problem with the
                   reviews. FAS planned to “work smarter” by using acceptable sampling
                   techniques to review a minimum target of 10 percent of the active
                   agreements.

                   However, our current audit confirmed that the weaknesses in monitoring
                   active agreements have continued. We found that FAS could not provide
                   documentation demonstrating that a 10-percent random sampling
                   methodology for selecting and reviewing active agreements had been
                   established. In addition, as we discuss later in this finding, FAS had lost
                   access to its automated database where agreement reviews were documented,
                   and thus could not provide documentation of agreement reviews performed.

                   Few Onsite Reviews Performed—

                   Onsite reviews are necessary to validate the existence and accuracy of PVO
                   banking and accounting records supporting the amounts of proceeds received
                   from selling commodities and program expenditures. Also, onsite reviews are
                   necessary to confirm that PVOs are accomplishing USDA’s food aid
                   objectives in foreign countries.

                   In response to OIG’s March 1999 report, FAS agreed to conduct:

                    •   Random spot check reviews at the U.S. Headquarters of PVOs operating
                        food aid programs;
                    •   Thorough reviews of five to seven PVOs each year; and
                    •   Regular review of problematic agreements.

                   However, OIG learned that FAS had not fully implemented these reviews due
                   to a lack of staff resources in both the evaluation and compliance divisions.
                   FAS had performed no reviews in 2000; only two reviews each year for
                   FYs 2001, 2002, and 2003; and three reviews in 2004. None of these reviews
                   included the PVO Winrock, whose food aid agreements in Angola and the
                   Ivory Coast are discussed at length in Finding 2.
USDA/OIG-A/07016-1-At                                                                       Page 6
                   We also noted that FAS had not developed a method to focus the few onsite
                   reviews it did conduct on the most problematic PVOs. In one instance, an
                   FAS analyst recommended that a deficient PVO be referred for an onsite
                   review, but that review did not occur. To identify and follow up on
                   problematic PVO agreements, FAS needs to strengthen communication
                   between its evaluation division, which conducts desk reviews of PVOs’
                   semiannual reports, and its compliance unit, which conducts onsite reviews.

                   Final Closeout Reviews Backlogged—

                   Closeout reviews allow FAS to assess sponsors’ administration of a particular
                   food aid agreement from start to finish before disbursing the final 15-percent
                   allotment of grant funds to the sponsor. Closeout reviews also enable FAS to
                   evaluate sponsors’ prior performance and determine whether they should be
                   awarded new agreements.

                   Our March 1999 audit found a backlog of agreements requiring final closeout
                   reviews for FYs 1992 through 1996. In response to our previous
                   recommendations, FAS agreed to complete closeout reviews of the backlog
                   of old agreements and to perform timely closeout reviews for all agreements
                   signed after December 31, 1997. However, as of October 2004, we found that
                   another backlog of agreements awaiting final closeout reviews had
                   accumulated since our last audit. Of 316 agreements awarded over the 4-year
                   period ending with FY 2001, only 110 had been closed out. (See
                   table 1 below.)


                    Table 1—FAS Food Aid Agreements With All Cooperating Sponsors,
                    Including Foreign Governments
                                       Total               Agreements   Percent
                                     Agreements Agreements Remaining  Remaining
                            FY        Awarded   Closed Out   Open        Open
                           1998          44         15         29        65.9
                           1999         100         38         62        62.0
                           2000         100         49         51        51.0
                           2001          72          8         64        88.9

                          Total           316            110            206            65.2


                   We noted that agreements with foreign governments—typically third-world
                   nations—comprised a significant portion (20 percent) of the backlog of open
                   agreements requiring closeout reviews. Of the 206 open agreements for
                   FYs 1998 through 2001, 42 were agreements with foreign governments;
                   during that period, FAS made 45 of these government-to-government

USDA/OIG-A/07016-1-At                                                                     Page 7
                                      agreements, only 3 of which had been closed out as of October 2004. The
                                      closeout process for foreign governments can be considerably more complex
                                      than the closeout process for agreements with PVOs, and any problems
                                      encountered may require the involvement of departmental officials and
                                      officials from other U.S. Government agencies. Because of the diplomatic
                                      and foreign policy implications, FAS should develop a separate process to
                                      facilitate timely closeout reviews for agreements with foreign governments.

                                      Review Efforts Hindered by Loss of Database—

                                      FAS’ efforts to conduct closeout reviews and reviews of semiannual reports
                                      were frustrated by the lack of an automated database to track food aid
                                      agreements. Until 2002, FAS used a Paradox database to store food aid grant
                                      agreements and semiannual logistics and monetization reports from PVOs.
                                      However, the system was outdated and could not support the billion-dollar
                                      array of food aid programs FAS manages. Furthermore, the agency’s
                                      Information Technology staff had not ensured effective controls were in
                                      place to secure the Paradox data system before releasing the contractor. As a
                                      result, after a contractor worked on Paradox in 2002, FAS employees were
                                      unable to access the food aid agreement information in the password-
                                      protected database.

                                      Without an automated system to facilitate the review process, FAS analysts
                                      relied on Excel spreadsheets to monitor food aid agreements and PVO
                                      reports. However, because the analysts’ spreadsheets were not uniform, OIG
                                      could not determine if required semiannual reports had been received from
                                      PVOs, what years the reports covered, and whether the reports had arrived on
                                      time. This manual, paper-intensive process was an inefficient method of
                                      monitoring food aid agreements. 9

                                      FAS managers and staff are aware of the agency’s need for an improved
                                      information technology infrastructure and have taken steps toward acquiring
                                      and implementing a new system. In 2003, FAS sought funding from OMB to
                                      begin design work for a new food aid information system. OMB then decided
                                      to expand the FAS system to include interagency information for all U.S.
                                      Government agencies dealing with food aid: FAS and FSA in USDA, the
                                      U.S. Agency for International Development (USAID), and the Department of
                                      Transportation Maritime Division. A contract for the new FAS system was
                                      awarded in September 2004, and an interagency requirements study was
                                      initiated. The results of the interagency study will be used to justify the new
                                      FAS system and the new overall U.S. Government-wide food aid reporting


9
  The lack of an automated database also prevented FAS from responding quickly to requests for information from program stakeholders, such as the
Office of Management and Budget (OMB). For example, just after the start of U.S. combat operations in Afghanistan, OMB requested information about
all food aid shipments into the area, such as the type of commodity, MT, and physical location (e.g., aboard ship, awaiting loading at port, etc.). FAS was
unable to satisfy OMB’s request without an extensive search of its paper files.

USDA/OIG-A/07016-1-At                                                                                                                             Page 8
                                    system. If funding is approved, FAS hopes to implement a design and build
                                    the project in FY 2006.

                                    Meanwhile, FAS has already created a new performance management and
                                    evaluation module that will become part of the new food aid system. It is
                                    intended to track the submission of semiannual reports and other information
                                    required from PVOs. In addition to monitoring report submission, the module
                                    maintains the actual data contained in the semiannual reports, including the
                                    disposition of food aid commodities from the time they are unloaded from the
                                    ship until they are sold or distributed to recipients. FAS plans to use the new
                                    module to evaluate and rank the performance of PVOs and other sponsors in
                                    operating their individual food aid projects.

                                    As of October 2004, FAS officials had entered food aid agreements through
                                    FY 2004 into the module, and the agency was in the process of entering
                                    semiannual reports received from PVOs for FYs 2000 through 2004. FAS
                                    had also sent letters to PVOs, requesting that they submit missing reports.
                                    Once it is fully functioning, the new performance management and
                                    evaluation module should strengthen FAS’ review process by giving the
                                    agency ready access to accurate and up-to-date food aid data.

                                    In order to prevent the data loss problems that impaired FAS’ older system
                                    for storing food aid information, FAS should make sure that future systems
                                    comply with Federal regulations for information technology. Government
                                    internal control standards require that transactions be promptly recorded to
                                    maintain their relevance and value for management decision-making, and
                                    access to accounting records be limited to authorized individuals with
                                    accountability for their custody and use. 10 OMB requires agencies to
                                    implement a program to adequately secure agency information systems. 11
                                    Agency information systems are to be certified and accredited in accordance
                                    with standards and procedures issued by the National Institute of Standards
                                    and Technology (NIST) of the Department of Commerce. 12

                                    FAS should establish controls to ensure that food aid data entered into the
                                    new performance management and evaluation module is protected from
                                    unauthorized access and alteration, and backup and recovery procedures to
                                    ensure that errors made during system maintenance or future system
                                    modifications do not cause the loss of the newly populated data. The
                                    performance management and evaluation module and the new food aid
                                    system should be certified and accredited in accordance with NIST standards.




10
   “Standards for Internal Control in the Federal Government, “U.S. Government Accountability Office, November 1999, pages 11-19.
11
   OMB Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” revised, “Transmittal memorandum No. 4, pages 1 and 2.
12
   NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems.”

USDA/OIG-A/07016-1-At                                                                                                                    Page 9
                    Insufficient Personnel Resources—

                    Further contributing to its agreement monitoring problems, FAS did not
                    assign sufficient staff to strengthen its oversight of food aid agreements. In
                    response to OIG’s previous findings, FAS planned to increase staff devoted
                    to evaluating its food aid programs and to explore contracting out certain
                    functions as necessary.

                    In an August 2001 report, FAS informed Congress that its evaluation of food
                    aid programs had been constrained due to limited personnel resources, high
                    staff turnover, and the recent growth of FFE programs. Also, the limited
                    presence of overseas attachés had impaired USDA’s ability to oversee
                    agreement projects. FAS has requested that its compliance staff help to
                    monitor and verify the use of monetization proceeds. In addition, FAS
                    planned to increase staff devoted to the evaluation of its food aid programs.

                    As of October 2004, the budget situation remained tight and a hiring freeze
                    made it unlikely that new personnel resources could be obtained. However,
                    FAS continued to understand the importance of monitoring and expressed its
                    willingness to reallocate resources, if needed.

                    Recent developments should assist FAS in accomplishing this task. FAS has
                    now completed startup operations for the new FFE programs that created an
                    extremely heavy workload in FYs 2002 and 2003. In addition, the new
                    performance management and evaluation module should eliminate the
                    manual, paper-intensive tracking of semiannual reports and provide an
                    automated process to perform agreement evaluations. However, if FAS
                    officials determine that its current staff is unable to complete the reviews in a
                    timely and comprehensive manner, FAS should consider contracting out
                    some of the review responsibilities, as the agency proposed in response to our
                    previous audit.

                    By fully implementing our March 1999 audit recommendations—reviews of
                    semiannual reports, onsite reviews, and final closeout reviews—FAS will
                    increase public confidence that PVOs are using USDA commodities and
                    funds appropriately. Given the serious program violations by Winrock,
                    discussed in the following finding, it is critical that FAS focus its efforts and
                    resources on strengthening its monitoring of foreign food aid programs.

Recommendation 1a

                    Implement management controls for reviews of semiannual reports, onsite
                    reviews, and closeout reviews, as agreed upon in response to OIG’s
                    March 1999 report. Establish and implement procedures to conduct detailed
                    evaluations of all open food aid agreements with activities still underway.

USDA/OIG-A/07016-1-At                                                                       Page 10
                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS has evaluation procedures in place and each monitoring
                        analyst in the * * * EC Programming Division has been provided
                        a monitoring and evaluation handbook containing the steps
                        involved in the agreement evaluation process. However, FAS will
                        improve the implementation and monitoring of evaluation
                        assignments by providing training in agreement evaluation
                        procedures for monitoring and programming staff by the end of
                        FY 2006. Further, one-on-one peer training will be provided.

                        In addition, FAS has conducted an inventory of all open
                        agreements from FY 1998 through FY 2005. During this 8-year
                        period, FAS signed nearly 900 food aid agreements with PVOs,
                        the World Food Program, and foreign governments. FAS now
                        will give priority to reviewing the reports for agreements signed
                        after FY 2003. This will ensure that agreements with continuing
                        activities are monitored more closely. FAS expects to have more
                        resources available for greater review of open agreements since
                        the number of new agreements entered into has been dropping
                        since 2003, after the Section 416(b) food aid program declined.
                        FAS is studying the possibility of contracting for additional
                        resources to assist in reviewing these reports in an even more
                        timely manner.

                    OIG Position. We agree with the management decision based on FAS’
                    development and implementation of the above-referenced monitoring and
                    evaluation handbook, which provides the necessary procedures and
                    instructions for conducting reviews of agreement operations, and the
                    additional staff training on the agreement monitoring process and procedures.

Recommendation 1b

                    Target five to seven PVOs annually for thorough onsite reviews of PVO
                    grant program operations and perform onsite reviews of documents
                    supporting semiannual reports at the U.S. Headquarters of PVOs.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS will continue to perform onsite reviews of PVOs but is
                        unable to commit to a target minimum each year. The number of
                        PVOs visited will depend upon several unforeseeable factors,
                        including the identification of questions or problems which are
                        brought to light through the A-133 audit process. FAS will
USDA/OIG-A/07016-1-At                                                                    Page 11
                        review the A-133 audits for all of the PVOs that have open
                        agreements and note any findings that relate to those agreements.
                        FAS will then follow up with the PVO on any such findings.
                        FAS will review the findings to select PVOs for onsite reviews.
                        FAS now requires and funds single agreement audits for all new
                        PVOs that are implementing FAS-administered food aid
                        programs.

                        In carrying out annual onsite reviews, the EC Programming
                        Division will select and prioritize PVO programs to receive a
                        visit. The Programming Division will meet with the Compliance
                        Review Staff * * * to discuss the possibility and timeframe for
                        each onsite review. This procedure will be repeated at the start of
                        each fiscal year. The Programming Division will keep records of
                        the minutes of these meetings. However, FAS’ ability to fully
                        implement this recommendation also will be subject to the
                        available staffing and travel resources of CRS.

                   OIG Position. OIG is aware of OMB Circular A-133, “Audits of States,
                   Local Governments, and Non-Profit Organizations,” requirements for annual
                   audits. We agree that FAS should review PVOs’ A-133 audits to discover
                   any findings related to USDA grants and followup on those findings.
                   However, the decision to perform onsite reviews of PVOs should also be
                   based on FAS’ system of checks and balances including its required
                   semiannual logistics, monetization, and financial reports from PVOs, as well
                   as on reliable external information FAS receives from its attaches and others
                   concerning PVOs’ grant operations. Finally, determinations of when to
                   conduct onsite reviews should be an ongoing activity rather than a
                   once-a-year determination.

                   In a June 27, 2003, Federal Register Notice, OMB commented that the
                   A-133 audit is only one of many monitoring tools available to oversee the
                   administration of and strengthen accountability over Federal grants. Grantee
                   monitoring should occur throughout the year rather than relying solely on a
                   once-a-year audit. OMB discussed other monitoring tools, including
                   reviewing grantee financial and performance reports and performing site
                   visits to review financial and program records and observe operations.
                   Finally, OMB noted that the Federal Government has the authority to audit
                   and/or investigate any entity suspected of using Federal funds improperly,
                   regardless of the amount of funds involved.

                   Regarding the number of onsite reviews to be performed, FAS proposed five
                   to seven annual onsite reviews of PVOs in its management decision
                   correspondence to OIG following our 1999 audit. While we agree that there
                   should be flexibility in the number of these reviews, we also believe there
                   should be an annual minimum target for the number of reviews to be
USDA/OIG-A/07016-1-At                                                                     Page 12
                    conducted. This target may be adjusted based on actual or overall PVO
                    performance in a given year. If FAS is unable to conduct sufficient onsite
                    reviews with its available staff resources, the agency should consider
                    contracting out the reviews as it previously proposed.

                    We can accept management decision for this recommendation when FAS
                    expands its criteria for determining when to perform onsite reviews to
                    include its assessment of PVOs’ required reports, and the agency establishes
                    a minimum annual target for performing the reviews.

Recommendation 1c

                    Develop a system to identify problematic PVO agreements and perform
                    regular reviews of these agreements.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS agrees with this recommendation. Agreements will now be
                        identified as problematic when the following types of criteria are
                        present:

                              •   Monetization problems;
                              •   High-risk country;
                              •   Inconsistent reporting;
                              •   Unexplained program delays; or
                              •   Warnings from Post, anonymous whistle blowers,
                                  or other sources.

                        Once an agreement has been identified as having one or more
                        types of the above mentioned criteria present, it will be included
                        on a list of agreements to be considered for onsite review and
                        given priority review status. This list will not be used as a basis
                        to automatically preclude future grant awards or debar or suspend
                        organizations.

                    OIG Position. We concur with the proposed evaluation criteria. To reach a
                    management decision, FAS officials need to provide us either with evidence
                    that these criteria have been incorporated into the agency’s monitoring and
                    evaluation handbook, or with timeframes for accomplishing this.

Recommendation 1d

                    Develop and implement a plan and timeframes to complete closeout reviews
                    of the backlog of agreements for FYs 1998 through 2001.

USDA/OIG-A/07016-1-At                                                                     Page 13
                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS has taken several steps to reduce the backlog of agreements
                        pending closeout review. First, FAS conducted an inventory of
                        all open agreements from FY 1998 through FY 2005. During this
                        8-year period, FAS signed nearly 900 food aid agreements with
                        PVOs, the World Food Program, and foreign governments. The
                        inventory list of open agreements will now be sorted and
                        prioritized for closeout review according to the age of the
                        agreement, the timing of the closeout request, and the date of the
                        submission of the final report. FAS is streamlining its procedures
                        and policies relating to the closeouts and providing additional
                        training to staff. These changes should allow closeouts of
                        agreements to proceed more quickly. Barring any dramatic
                        changes in staffing levels, FAS will give priority attention to
                        closing 239 open agreements signed from FY 1998 to
                        FY 2001 over the next three years.

                    OIG Position. We agree with management decision on this
                    recommendation with the understanding that FAS will complete the closeout
                    reviews for the FY 1998 to FY 2001 agreements by the end of FY 2009.

Recommendation 1e

                    Develop procedures to ensure that agreements for FY 2002 and beyond
                    receive timely closeout reviews.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS agrees with this recommendation and has implemented the
                        steps previously outlined to ensure completion of the backlog of
                        closeout reviews of FY 1998 to FY 2001 agreements. To
                        determine which agreements are reviewed first, FAS will
                        consider criteria such as the date of the closeout request and the
                        year of the agreement. FAS will give priority to older agreements
                        during the closeout process.

                    OIG Position. We appreciate FAS’ efforts to prioritize and address the
                    current backlog of agreements awaiting closeout reviews. We also appreciate
                    the agency’s staffing constraints and system problems that led to the backlog.
                    However, our 1999 audit found a backlog of agreements awaiting closeout
                    reviews, and our current audit found a similar backlog.



USDA/OIG-A/07016-1-At                                                                     Page 14
                   To break the backlog cycle for active/ongoing agreements signed in FYs
                   2002 and beyond, FAS needs to establish realistic new procedures and
                   timeframes to perform closeout reviews. For example, FAS may consider
                   establishing a goal to close out all agreements signed in FY 2002 and beyond
                   within 120 to 180 days of receiving the closeout request from the PVO.
                   Working toward a goal of this type could assist FAS in timely closing
                   agreements and avoiding future agreement backlogs.

                   We can reach management decision on the recommendation when FAS
                   submits a plan to conduct timely closeout reviews of agreements signed for
                   FYs 2002 and beyond.

Recommendation 2

                   Review narrative descriptions of agreement operations, commodity
                   transactions, and all other information submitted in PVOs’ semiannual
                   logistics and monetization reports reviewed, and track any problematic
                   issues.

                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS recognizes the need for early detection of problems in
                        agreements and the need to track problematic issues. In response
                        to this need, FAS is exploring ways to improve the timeliness of
                        its review of the various types of reports received each year.
                        During FY 2005, FAS dedicated two staff members to receive
                        reports and record their receipt. The staff members notified
                        managers of the reports that were received, and FAS compared
                        these submissions with open agreements. During FY 2006, a staff
                        member will review each report and quickly note any obvious
                        problems. The reports will be sent to analysts responsible for the
                        geographic regions for further review, especially of the narrative
                        sections. The review will be recorded in the inventory of
                        agreements. FAS will look especially for final reports,
                        incomplete reports, and issues. FAS will give priority
                        consideration to the review of PVO reports provided under
                        problematic agreements.

                    OIG Position. We agree with the management decision.

Recommendation 3

                   Establish a process for meetings between the FAS evaluation and compliance
                   personnel to refer problematic agreements for onsite reviews. Document
                   agreement referrals and review results.
USDA/OIG-A/07016-1-At                                                                    Page 15
                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS agrees with this recommendation. By the end of
                        FY 2006 FAS will establish a procedure and train staff on the
                        procedure. The procedure will involve a chain from the analyst to
                        the branch chief to the director’s office in the Programming
                        Division of EC, then to CRS. Guidance about violations and
                        claims will also help analysts to improve their abilities to identify
                        problems and solutions. A copy of the list of organizations
                        requiring additional monitoring will be shared with CRS.
                        Meetings will be conducted as needed and a record of each
                        meeting will be retained in the files of the Programming Division.
                        However, the Programming Division will also continue to request
                        that CRS review all Cooperating Sponsors on a rotating basis to
                        ensure that less visible issues are identified.

                    OIG Position. We agree with the management decision.

Recommendation 4

                   Develop and implement a separate process to ensure timely closeout reviews
                   of government-to-government agreements, including steps to elevate closeout
                   problems to departmental officials for timely final resolutions.

                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS agrees with this recommendation. The reporting
                        requirements for foreign governments are the same as those for
                        PVOs. Therefore, by the end of FY 2006, FAS will implement
                        similar steps as those taken to complete closeout reviews of
                        FY 1998 to FY 2001 agreements. This will include maintaining an
                        inventory list and prioritizing these agreements for closeout.

                    OIG Position. FAS’ initiative to complete closeout reviews of FY 1998 to
                    2001 agreements should also assist in closing government-to-government
                    agreements. However, the FAS closeout process for agreements with PVOs
                    will not address diplomatic and foreign policy issues that arise with
                    sovereign foreign governments receiving USDA grants. To reach a
                    management decision, FAS needs to develop a separate process to facilitate
                    timely closeouts of these agreements, including procedures to elevate
                    difficult foreign policy issues to the FAS Administrator and Departmental
                    officials.



USDA/OIG-A/07016-1-At                                                                       Page 16
Recommendation 5

                   In order to protect food aid data from unauthorized access and loss during
                   routine system maintenance and future system modifications, ensure that the
                   performance management and evaluation module and related modules in the
                   new food aid system comply with OMB A-130 and NIST 800-37 certification
                   and accreditation procedures.

                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS agrees with this recommendation and will take reasonable
                        steps to ensure compliance with OMB and USDA guidelines.
                        Currently FAS is compliant with OMB A-130 and NIST
                        800-37 procedures. Additionally, an OMB-300 was developed for
                        the Information Technology * * * development of the Food Aid
                        Information System * * * (which includes enhancements to the
                        PVO reporting module), in September 2005. The OMB-300 was
                        reviewed and approved by the USDA Office of the Chief
                        Information Officer, and forwarded to OMB for review.

                   OIG Position. We agree with the management decision.

Recommendation 6

                   Identify and implement a course of action to ensure thorough and timely
                   reviews of food aid agreement operations.

                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS agrees with this recommendation and has set a goal of
                        closing 80 percent of agreements within 6 years of signing,
                        starting with FY 2002 agreements. However, any reduction in
                        FAS resources could slow down or restrain the process.

                   OIG Position. We agree with the agency’s stated goal. However, the
                   response includes reservations about the ability of the agency to fulfill its
                   goal. If FAS is unable to attain its goal due to staffing resources, the agency
                   should consider contracting out the agreement reviews as it previously
                   proposed. To reach a management decision, FAS officials need to provide us
                   with their plan, including timeframes, to implement their stated goals while
                   taking into account the anticipated possibility of reduced resources.




USDA/OIG-A/07016-1-At                                                                     Page 17
Finding 2                           FAS Needs To Strengthen Controls Over PVOs’ Implementation
                                    of FFP Agreements

                                    USDA FFP agreements in Angola and the Ivory Coast were not successfully
                                    implemented, even though FAS donated more than 23,000 MT of
                                    CCC-donated commodities for monetization. FAS did not ensure that PVOs
                                    were capable of fulfilling their grant proposals prior to disbursing funds or
                                    sending commodities. Nor did it deal with PVOs that violated their
                                    agreements, or prevent PVOs that had violated past agreements from
                                    receiving additional funds. These weaknesses in the agency’s controls were
                                    made manifest by Winrock’s conduct. Over the course of two food aid
                                    agreements, Winrock misrepresented itself as a viable agent in its host
                                    countries, mismanaged its grant operations, repeatedly violated CCC
                                    regulations and the terms of its agreements, and failed to respond
                                    appropriately to serious internal weaknesses in its operations and Winrock
                                    employees’ allegations of fraud. Together, FAS’ control weaknesses and
                                    Winrock’s mismanagement meant that $2.2 million in benefits from the sale
                                    of food aid commodities never reached the people of Angola and the Ivory
                                    Coast.

                                    Federal regulations stipulate the agency’s and grant recipients’ responsibility
                                    for grant funds. 13 FAS has the lead responsibility for managing USDA’s food
                                    aid programs. 14 The agency is responsible for monitoring to ensure that
                                    PVOs and other cooperating sponsors comply with their food aid agreement’s
                                    reporting, implementation, and financial requirements. 15 Cooperating
                                    sponsors must have the organizational experience and resources available to
                                    implement and manage the programs they propose. 16 Sponsors who damage,
                                    misuse, or lose administrative funds, commodities, or sale proceeds through
                                    negligence or program violations are required to reimburse the U.S.
                                    Government for the value of commodities or program income lost. 17

                                    Our review, however, found weaknesses in FAS’ controls for ensuring that
                                    the proceeds from the monetization of CCC-donated commodities are used in
                                    accordance with grant agreements. FAS lacked procedures for:

                                     •    confirming that PVOs have received the recognition of their host
                                          governments before finalizing food aid agreements;



13
   OMB Circular A-110, “Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations.”
14
   Agricultural Factbook 2001-2002, Chapter 7, “Farm and Foreign Agricultural Services,” page 7.
15
   “FAS Management Controls Review, Risk Program / Function Risk Assessment Worksheet (Including Management Control Objectives),”
November 2003, “Export Credits, Office of Deputy Administrator, Foreign Food Aid.”
16
   7 CFR 1499.15 (e), “Liability for Loss, Damage or Improper Distribution of Commodities—Claims and Procedures.”
17
   7 CFR 1499.3, “Eligibility Requirements for Cooperating Sponsors.”

USDA/OIG-A/07016-1-At                                                                                                                  Page 18
                                        •    verifying that PVOs have complied with agreed upon financial
                                             arrangements, such as establishing separate bank accounts in-country to
                                             enable the PVO to receive grant program income and make routine
                                             program disbursements to carry out agreement operations, prior to
                                             shipping the commodities;

                                        •    pursuing grant funds lost due to PVOs’ mismanagement; and

                                        •    reviewing PVOs’ past performance before approving additional food aid
                                             agreements.

                                       Winrock’s conduct in Angola and the Ivory Coast has demonstrated that FAS
                                       needs to correct these weaknesses in its internal controls.

                                       FAS Lacks Necessary Controls to Ensure that Food Aid Agreements Are
                                       Properly Implemented—

                                       1.    Recognition of Host Governments—

                                       While regulations do not specifically require PVOs to obtain the legal
                                       recognition of their host governments, CCC regulations do require that PVOs
                                       have experience working in targeted countries and the resources needed to
                                       implement and manage the type of program they propose. 18 We believe that
                                       recognition by a host country’s government is a necessary prerequisite if
                                       PVOs are to accomplish most basic program activities, including opening an
                                       office, hiring staff, and establishing a local bank checking account. Despite
                                       the need for legal recognition to perform these ordinary business activities,
                                       FAS has no procedure in place to verify that PVOs have received such
                                       recognition before they receive donated commodities or funds.

                                       Most PVOs would, as a matter of course, seek and obtain their host
                                       government’s recognition as they initiate their program activities in-country;
                                       however, we maintain that FAS should, in order to prevent mismanagement
                                       of CCC-donated commodities, confirm that this recognition has been
                                       obtained prior to finalizing any agreements. In cases where the PVO has
                                       already established itself and successfully implemented previous agreements
                                       in-country, additional evidence of the host country government’s recognition
                                       would not be necessary.

                                       However, FAS did not confirm whether or not the Angolan Government had
                                       recognized Winrock. This control weakness is partially responsible for the
                                       loss of grant funds in that country, as discussed later in this finding.



18
     7 CFR, Chapter 1499.3c (1)(2) — “Eligibility Requirements for Cooperating Sponsors.”

USDA/OIG-A/07016-1-At                                                                                       Page 19
                                     2.     Necessary Financial Arrangements—

                                     Because PVOs often operate in foreign economies where the business
                                     environment is unstable or where the conditions for investment are not ideal,
                                     FAS requires PVOs to include prudent solutions to these problems in their
                                     grant proposals. FAS does not, however, ascertain that these arrangements
                                     have been carried out before it ships commodities for monetization.

                                     For example, PVOs must establish separate special bank accounts to deposit
                                     monetization proceeds, accrue interest, and make disbursements to carry out
                                     program activities. 19 The August 10, 2001, FAS report to Congress on food
                                     aid monetization stated that “[m]onetized proceeds must be placed in a
                                     special account and used only for approved purposes. The funds in the special
                                     account may not be commingled with other funds.” Regulations do not,
                                     however, require that PVOs provide evidence to FAS that a separate bank
                                     account in-country has been established to conduct program operations, nor
                                     does FAS verify that these separate accounts have been established before
                                     shipping donated commodities.

                                     If PVOs do not follow these regulations, serious financial problems can
                                     result. For instance, in 2003, Project Concern International (PCI)—a PVO
                                     operating for the first time in Honduras—allowed $3.8 million in grant funds
                                     to be commingled with the funds of other entities in Honduras receiving
                                     donations from multiple sources. Because PCI did not have legal status in
                                     Honduras, it could not open a separate local bank account to transact program
                                     activities. Without a separate account to deposit monetization proceeds, PCI
                                     deposited grant funds in an account shared with several other entities. 20 Due
                                     to its improper handling of program funds, PCI found itself unable to
                                     determine how much interest had accrued on grant funds provided by USDA
                                     and properly report the interest in its quarterly financial statements. PCI’s
                                     predicament demonstrates that FAS needs to take steps to verify that PVOs
                                     have established a separate bank account in-country to receive sales proceeds
                                     and make disbursements for program activities before CCC commodities are
                                     shipped.



19
   7 CFR 1499.5, “Program Agreements and Plans of Operation.” (6) “Use of Funds or Goods and Services Generated: When the activity involves the use
of sale proceeds, the receipt of goods or services from the barter of commodities, or the use of program income, the following information must be
provided: (f) “procedures for assuring the receipt and deposit of sale proceeds and program income into a separate special account and procedures for the
disbursement of the proceeds and program income from such special account.”
20
   As a stopgap measure, PCI shared a bank account with the Regional Water and Sanitation Network of Central America and Swiss Development
Cooperation. The common bank account was used to process disbursements of monthly program operating expenses associated with five separate
agreements, funded by four different donors: Swiss Development Cooperation, USAID, the World Bank, and USDA. As of July 28, 2004, PCI opened a
separate bank account. However, the funds associated with the USDA grant remained commingled with the Swiss Development Cooperation, the World
Bank, and USAID grant funds in the joint account. PCI was uncertain how interest accrued on the joint account balance would be allocated. Also, a
finance team had to be assigned to calculate how much of the account balance belonged to each party.

USDA/OIG-A/07016-1-At                                                                                                                        Page 20
                                       FAS’ failure to verify that Winrock had fulfilled the financial requirements in
                                       its grant proposal—including separate accounts for monetization proceeds
                                       and arrangements for limiting its holdings of the unstable Angolan
                                       currency—is partially responsible for the loss of grant funds in that country,
                                       as discussed later in this finding.

                                       3.    Pursuit of Grant Funds Lost Due to PVO Mismanagement—

                                       CCC regulations provide that cooperating sponsors receiving food aid
                                       agreements repay the United States the value of lost commodities,
                                       monetization sales proceeds, or program income when the cooperating
                                       sponsor is at fault due to any act or omission, or failure to provide proper
                                       storage, care, and handling of the commodities or commodity sales
                                       proceeds. 21 FAS, however, has no procedures for aggressively pursuing the
                                       recovery of grant funds lost due to PVO mismanagement.

                                       As discussed later in this finding, FAS has not initiated any efforts to recover
                                       the $2.2 million in grant funds Winrock mismanaged in Angola and the Ivory
                                       Coast, even though it possesses evidence that Winrock violated its grant
                                       agreements in ways that materially contributed to those losses.

                                       4.    Review of PVOs’ Past Performance—

                                       Despite having agreed to institute a performance-based review as part of its
                                       approval process for all PVO food aid proposals, that review system was not
                                       functioning as designed. FAS has stated that its performance-based review is
                                       designed to assess a PVO’s worthiness to receive USDA funds and donated
                                       commodities by taking “into account a PVO’s demonstrated capabilities and
                                       its track record in managing USDA food aid and other similar programs.”

                                       Even though FAS has maintained that “[a]n organization . . . which failed to
                                       maintain sufficient transparency in its program implementation and was less
                                       than responsive to FAS requests for documentation, would undoubtedly
                                       receive a very low rating for past performance and stand little chance of
                                       receiving additional food aid,” FAS signed a new agreement in July 2002 to
                                       provide Winrock with 32,500 MT of commodities for program activities in
                                       Indonesia. FAS signed this new agreement even though it was aware of
                                       Winrock’s mismanagement of funds in Angola and the Ivory Coast—its own
                                       analyst had previously called for an audit of Winrock’s prior agreement
                                       activities and recommended that Winrock receive no more food aid
                                       agreements.

                                       Including a performance-based review as part of approving all PVO food
                                       proposals would represent a significant improvement in FAS’ application

21
     7 CFR 1499.15(e), “Liability for Loss, Damage, or Improper Distribution of Commodities.”

USDA/OIG-A/07016-1-At                                                                                         Page 21
                                      process; however, in the case of Winrock’s Indonesian agreement, that
                                      review system was not functioning as designed. As part of improving its
                                      internal controls over how food aid grants are administered, FAS should fully
                                      implement this review process and apply it to all food aid proposals
                                      submitted by PVOs.

                                      Overall, we conclude that FAS should strengthen its controls for ensuring
                                      that PVOs implement their food aid projects as specified in their grant
                                      proposals and agreements. These improvements should increase public
                                      confidence that funds set aside for foreign policy objectives are serving their
                                      intended purpose. They should also help prevent grant funds from being
                                      wasted, as occurred with two Winrock agreements in Africa.

                                      Winrock Mismanaged FFP Agreements in Angola and the Ivory Coast—

                                      The shortcomings in FAS’ controls over PVO agreement operations have
                                      been brought into sharp focus by Winrock’s conduct in Angola and the Ivory
                                      Coast. Due to the PVO’s failure to comply with regulations and its grant
                                      agreements, $2.2 million dollars in grant funds has been lost and food aid
                                      programs intended for the people of those countries were not completed as
                                      planned.

                                      1.    Loss of Grant Funds in Angola—

                                      In August 1998, Winrock signed its FFP agreement for Angola. In its
                                      proposal, Winrock aimed to enhance Angolan women’s participation in
                                      agriculture and to establish renewable energy activities in Angola and
                                      Namibia. In exchange, FAS provided Winrock with 8,781 MT of
                                      CCC-donated wheat flour for monetization and $50,953 for administrative
                                      costs. In accordance with CCC regulations, 22 FAS immediately advanced
                                      $43,310 of this sum—$7,643 was withheld until the agreement was
                                      successfully closed out.

                                      By undertaking this agreement, Winrock asserted that it was a viable agent in
                                      Angola; however, throughout the duration of the grant agreement, Winrock
                                      never received the recognition of the Angolan Government. This failure
                                      sharply curtailed its activities and rendered many program activities
                                      impossible. As part of its proposal, Winrock had agreed to establish a fully
                                      equipped office in Angola and to limit its holdings of the unstable local
                                      currency by maintaining two separate, interest bearing accounts, one in the
                                      United States for dollars and one in Angola for local currency. Without the
                                      Angolan Government’s recognition, it could not abide by the terms of its
                                      proposal. Because FAS has no control in place to verify that PVOs receive


22
     7 CFR 1499.7 (f), “Apportionment of Costs and Advances.”

USDA/OIG-A/07016-1-At                                                                                       Page 22
                                   their host government’s recognition, the agency remained unaware of this
                                   problem.

                                   Between January and March 1999, Winrock sold its donated wheat flour to
                                   an African distribution and baking company, Tondo Limitada, for
                                   $1,887,851. The proceeds from this sale were to be paid both in dollars and
                                   in the local kwanza. Since Winrock had not—in violation of its grant
                                   proposal and CCC regulations—established special accounts for the receipt
                                   of monetization proceeds, it allowed Tondo Limitada to keep the entire sum
                                   and make disbursements on Winrock’s behalf for program activities. Even
                                   though Winrock was aware of the kwanza’s extreme instability—and had
                                   suggested in its grant proposal a prudent mechanism for protecting program
                                   funds—it allowed more than half of its monetization proceeds to remain in
                                   the Angolan currency, leaving $1,076,075 vulnerable to the currency’s
                                   fluctuations. Again, since it did not verify that PVOs fulfilled their financial
                                   obligations, FAS was not cognizant of this exposure of grant funds.

                                   Despite regulations requiring PVOs to notify FAS of adverse circumstances
                                   materially impacting their implementation of grant agreements, 23 Winrock
                                   chose at this point not to inform the agency of its failure to obtain the
                                   Angolan Government’s recognition, of its inability to lease office space and
                                   hire local staff, of its failure to establish a local bank account to deposit
                                   monetization proceeds and make program disbursements, and of its keeping
                                   more funds in kwanza than its immediate needs required. Had Winrock been
                                   forthright and notified FAS that its operations in Angola were in jeopardy,
                                   FAS could have modified the agreement to transfer monetization proceeds to
                                   another PVO in Angola—one with Government recognition.

                                   Instead, the monetization proceeds remained largely (57 percent) in kwanza,
                                   and the currency underwent a dramatic devaluation in May 1999. A dispute
                                   between Winrock and Tondo Limitada over the rate at which devalued
                                   kwanza could be converted to dollars contributed to this loss of program
                                   funds. Since Winrock was not recognized by the Angolan Government, it
                                   could have no recourse in Angolan courts and soon exhausted any
                                   meaningful alternative for recovering this money. In the end, Winrock
                                   received only 25 percent of the local currency anticipated and was forced to
                                   scale back program activities accordingly.

                                   Due to weaknesses in how FAS monitored PVOs and Winrock’s decision not
                                   to report as required by regulations (see Finding 1), the agency knew nothing
                                   of this situation until July 2000, when Winrock requested the
                                   $7,643 remaining for administrative costs. According to the grant agreement,
                                   that sum was contingent upon the successful conclusion of the project; in this
                                   case, of course, the project had never been properly started, much less
23
 OMB Circular A-110, “Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organization,” “Reports and Records,” page 40, and Subpart D, “After the Award Requirements,” pages 47 and 48.

USDA/OIG-A/07016-1-At                                                                                                                 Page 23
                   successfully completed. Before it would release the funds, FAS requested the
                   semiannual logistics and monetization reports it should have received much
                   earlier. Only then did FAS learn the story of the kwanza’s devaluation, the
                   loss of grant funds, and the resulting failure to accomplish food aid goals as
                   envisioned in the grant proposal it had approved. FAS did not release the
                   remaining $7,643.

                   On July 26, 2001, FAS met with Winrock to discuss the status of this
                   agreement. Winrock had received more than $1.9 million in USDA goods
                   and funds, and had incurred expenses totaling $528,872. Thus, more than
                   $1.4 million remained unaccounted for (see table 2 below). Though much of
                   this sum was lost during the kwanza’s devaluation and Winrock’s subsequent
                   dispute with Tondo Limitada, that loss was caused by Winrock’s disregard of
                   the financial terms specified in its grant agreement.


                        Table 2—Winrock’s FY 1998 FFP Agreement in Angola: Program
                        Funding and Expenses (Source: FAS files and FAS analyst.)
                        Line Item Description                  U.S. Dollars

                        Monetization Proceeds                   $1,887,851
                        CCC-donated administrative funds           $43,310
                        Total                                                            $1,931,161
                        Administrative Expenses                   $288,373
                        Program Expenses                          $206,261
                        Legal Fees                                 $34,238
                        Total Agreement Outlays                                           $528,872
                        Total of Not Accounted For                                       $1,402,289



                   During the July 2001 negotiations, Winrock submitted a project closeout
                   proposal valuing its completed program activities at $40,000. In a
                   January 2003 letter, it offered “to fund the final project activities, totaling
                   $40,000, from its own accounts in order to bring the core project activities to
                   completion.” OIG concluded that this offer—just 3 percent of the lost sum—
                   was insufficient when compared to the $1.4 million in grant funding still
                   unaccounted for.

                   Winrock’s conduct in Angola was characterized by serious violations of its
                   agreement with FAS and by a marked lack of transparency. Winrock did not
                   obtain the Angolan Government’s recognition; it did not establish a local
                   bank account to deposit monetization proceeds and make program
                   disbursements; it did not limit its holdings of kwanza; it did not timely submit
                   its logistics and monetization reports; and it did not notify FAS of adverse
                   circumstances affecting its ability to fulfill its project. Given its disregard for
                   its obligations to FAS and USDA, we conclude that Winrock should be held
                   responsible for the loss of this $1.4 million in food aid.

USDA/OIG-A/07016-1-At                                                                        Page 24
                                      2.     Loss of Grant Funds in the Ivory Coast—

                                      In March 1999, FAS signed an agreement with Winrock to conduct a FFP
                                      program in the Ivory Coast. This agreement, referred to as ALFALFA II, was
                                      a continuation of a FY 1997 agreement, ALFALFA I. According to the terms
                                      of ALFALFA II, CCC provided 15,000 MT of brown rice for monetization,
                                      while Winrock agreed to help retain the present market share of U.S. brown
                                      rice in the Ivory Coast and to extend that market to Burkina Faso and Mali.
                                      Again, in its proposal, Winrock assured FAS that it was a viable and efficient
                                      agent in the Ivory Coast, that it possessed a well equipped and professionally
                                      staffed office in Abidjan—that country’s largest city—and that it would
                                      exercise careful control over grant funds.

                                      However, in March 2000, USDA learned that Winrock’s Abidjan employees
                                      had alleged that the Abidjan regional director and accountant had committed
                                      fraud, waste, and abuse while implementing this agreement. These
                                      allegations included the diversion of program funds for personal use, bribery,
                                      kickback schemes, nepotism, forgery, misuse of program-registered vehicles
                                      (including the conversion of one vehicle into a race car), sexual misconduct,
                                      and the use of program funds for improvements at the regional director’s
                                      home. In April 2000, Winrock dispatched a team of auditors to Abidjan.
                                      Those auditors later confirmed that the Winrock financial manager in
                                      Abidjan had violated procedures for handling cash and that there were other
                                      serious management issues in the Abidjan office relating to human resource
                                      policies, excessive expenses, and project reporting. 24 Even though the
                                      auditors observed that these conclusions were arrived at “in a context where
                                      internal control and local business practices make it extremely difficult to
                                      prove fraud,” Winrock required that its regional manager either resign or be
                                      fired. FAS requested a full copy of this report, but Winrock declined to
                                      provide the report, claiming that it concerned matters internal to the
                                      company.

                                      A second team of Winrock’s auditors visited Abidjan in December 2000 to
                                      conduct an audit evaluating the reliability of the company’s financial
                                      information for the first year of the food aid agreement’s operation. The
                                      auditors’ January 2001 report cited numerous serious internal control
                                      weaknesses and poor accounting practices. In addition, the Abidjan staff had
                                      failed to pay taxes and social security contributions for staff, consultants, and
                                      service providers to the Ivorian Government. While the auditor’s report cited
                                      specific problems with individual financial transactions and data, the report

24
  A limited review was performed by Winrock’s auditors, Deloitte Touche Tohmatsu, from April 17 – 26, 2000. The auditors emphasized that the
procedures performed did not constitute an audit in accordance with international standards, and that no assurance had been provided on any financial
information relating to Winrock’s Abidjan Office at any date, nor could their engagement be relied upon to disclose all fraud, errors, or illegal acts.

USDA/OIG-A/07016-1-At                                                                                                                           Page 25
                   did not include an overall assessment of Winrock’s financial information for
                   Alfalfa II’s first year of operations. Although Winrock generally agreed with
                   the audit’s recommendations to improve its internal controls, OIG found no
                   evidence that corrective action was taken, that a remedial audit was
                   conducted, or that the food agreement’s second year of operations was
                   audited.

                   In July 2003, FAS officials completed their final evaluation of the
                   agreement’s implementation and prepared an agreement assessment to close
                   the file. In the assessment, the FAS analyst cited Winrock’s inaccurate
                   reports that often included irrelevant and misleading information. The analyst
                   prepared a spreadsheet comparing the amounts of funding in the agreement
                   for project activities to the program expenditures reported by Winrock in its
                   logistics and monetization reports. The analysis showed that a total of
                   $3,425,000 was provided for the project; however, Winrock had reported
                   only $2,651,413 in project expenditures. Thus, Winrock could not account
                   for $773,587 in monetization proceeds (see table 3 below).


                   Table 3 – Winrock Ivory Coast Food for Progress Agreement:
                   Comparison of Project Budget to Actual Expenditures
                Winrock Project     Original      Project Outlays in   Difference Between
                Activities          Agreement     Winrock              Original Agreement
                FCC-681-9/386-00    Funding       Monetization         and Winrock
                Ivory Coast                       Reports              Monetization
                (Including Mali,                                       Reports
                Senegal, & Benin
                Ivorian             $1,000,000    $399,500             ($600,500)
                Government
                Women’s             $1,325,000    $1,205,831           ($119,169)
                Leadership
                Training Center     $260,000      $276,939             $16,939
                Agriculture and     $360,000      $316,700             ($43,300)
                Small Enterprise
                Renewable Energy    $220,000      $212,365             ($7,635)
                Agro-forestry and   $260,000      $240,078             ($19,922)
                Natural Resources
                Management
                Total Project       $3,425,000    $2,651,413           ($773,587)
                Activities
                   (Source: FAS files and FAS analyst.)


                   The FAS analyst ended the assessment by stating that the Ivory Coast
                   agreement was plagued with problems, and that Winrock’s internal
                   management appeared at times to lack the ability to provide effective
                   agreement oversight. The analyst recommended that this agreement and
                   Winrock’s Angolan agreement be reviewed more fully. Since questions

USDA/OIG-A/07016-1-At                                                                       Page 26
                                     surrounding Winrock’s conduct in the Ivory Coast led to questions about the
                                     company’s integrity, the analyst also concluded that CCC should not fund
                                     any future Winrock agreements. 25

                                     FAS did not follow its analyst’s recommendations to conduct further review
                                     of Winrock’s agreement implementation before closing out the Ivory Coast
                                     agreement. FAS closed out the ALFALFA II agreement in August
                                     2003 before closing out the earlier related ALFALFA I agreement, even
                                     though the earlier agreement had also been recognized as problematic. As of
                                     the end of our audit, ALFALFA I had not been closed out.

                                     Winrock is responsible for the loss of $1,402,289 in Angola and $773,587 in
                                     the Ivory Coast. To date, FAS has taken no steps to recover these funds—
                                     Winrock’s 1998 Angola agreement remains open, and FAS closed out the
                                     Ivory Coast agreement in 2003 without seeking recovery. The closeout letter,
                                     in fact, praised Winrock for its “transparency” concerning the allegations of
                                     fraud, despite Winrock’s decision not to provide FAS the full report of the
                                     first internal audit performed in response to Winrock employees’ allegations
                                     of contract fraud, kickback schemes, and false reports of program activities.
                                     The limited review 26 of these allegations by Winrock’s auditors had
                                     identified serious management issues relating to human resource policies,
                                     excessive office expenses, and project reporting.

                                     Federal regulations, however, provide that the closeout of an award does not
                                     affect the right of a Federal agency to disallow costs and recover funds on the
                                     basis of a later audit. 27 Given Winrock’s conduct, we conclude that FAS
                                     should follow CCC regulations and seek the recovery of $2.2 million in lost
                                     grant funds.

Recommendation 7

                                     Amend CCC regulations governing eligibility requirements for cooperating
                                     sponsors applying for foreign food donation programs to require that
                                     cooperating sponsors provide evidence of successful prior in-country grant
                                     operations or documentation to CCC to certify that legal recognition has been
                                     obtained from the host country governments where grant programs will be
                                     implemented. This documentation must be provided before CCC finalizes a
                                     contract to award a food aid grant. Then establish controls to implement the
                                     amended regulations.




25
   FAS did not follow its analyst’s recommendations, as evidenced by its approving Winrock’s 2002 FFP agreement with Indonesia.
26
   In a brief letter to FAS, the Winrock auditors reported they performed only procedures agreed upon with Winrock. Their audit was not performed in
accordance with international standards and could not be relied upon to disclose all frauds, errors, or illegal acts.
27
   OMB Circular A-110, “Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations,” Subpart D 72, “Subsequent Adjustments and Continuing Responsibilities,” page 47.

USDA/OIG-A/07016-1-At                                                                                                                      Page 27
                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS can agree to a concept that focuses on registration or
                        experience, and FAS will draft and submit amended regulations
                        by the end of FY 2006 that will address this issue. As part of the
                        amended regulations, FAS will require PVOs to demonstrate past
                        in-country experience or registration within the country.

                   OIG Position. We agree with the management decision.

Recommendation 8

                   Amend CCC regulations to require PVOs and other cooperating sponsors to
                   provide evidence that they have opened separate bank accounts in-country for
                   deposit of monetization proceeds and disbursement of local funds to conduct
                   program operations prior to shipping CCC-donated commodities provided for
                   monetization. Then establish controls to implement the amended regulations.

                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS cannot agree to this specific recommendation. Requiring
                        separate bank accounts would contradict OMB circulars and
                        Section 3015 of the departmental regulations. PVOs normally try
                        to minimize the number of bank accounts and use sophisticated
                        accounting systems to ensure proper allocation of funds to grants.
                        PVOs incur costs in opening multiple accounts and could face
                        great risk in managing and safeguarding the funds. However, the
                        regulations could be amended to require that PVOs maintain
                        separate accounting of proceeds so that the funds and interest can
                        be allocated to individual grants. FAS will draft and submit
                        amended regulations by the end of FY 2006 that will require
                        PVOs to maintain sufficient accounting procedures to be able to
                        identify proceeds and interest with specific awards.

                   OIG Position. We cannot agree with the management decision for this
                   recommendation because the proposed amendment will not address the
                   underlying issues we identified.

                   During our audit, OIG reviewed the selected PVOs’ accounting systems for
                   USDA grant funds. The PVOs generally received numerous grants from
                   USDA and several other agencies. They maintained master banking accounts
                   within the United States for grant funds and unique accounting codes to
                   identify each grant. OIG did not identify problems with this practice.

USDA/OIG-A/07016-1-At                                                                    Page 28
                   However, our audit did identify problems in PVOs’ local banking practices
                   in foreign countries. PCI deposited funds obtained from monetizing
                   CCC-donated commodities in a common account in Honduras with several
                   other entities. Within a short timeframe, PCI was unable to identify how
                   much of the account balance belonged to PCI or how much interest was
                   accrued on its funds. Winrock did not open a local banking account at all in
                   Angola, but instead arranged for the buyer of the CCC-donated commodities
                   to retain the funds and pay Winrock’s program expenses. This led to the
                   eventual loss of most of the local currency (kwanza).

                   FAS officials believe that requiring in-country bank accounts would
                   contradict Departmental Regulation (DR) 3015 and the related OMB
                   Circular. The regulation and circular establish standards governing the use of
                   banks and other institutions as depositories of grant funds, and do state that
                   agencies may not require separate accounts for individual grants. However,
                   they also require grant recipients to deposit grant funds in insured, interest-
                   bearing accounts wherever possible. We do not believe that these
                   requirements were meant to be applicable to grant operations in foreign
                   countries where economic and financial infrastructures are still in the
                   developmental stage and currencies are frequently unstable. Both OMB
                   Circular A-110 and the DR acknowledge the need for granting exceptions in
                   unusual circumstances, and provide means by which agencies can apply
                   more restrictive requirements.

                   Based on the conditions we documented in the report, we continue to believe
                   that grant funds provided for operations in foreign countries are at great risk
                   when not deposited in separate PVO bank accounts. Additional accounting
                   procedures will not protect monetization proceeds at risk of loss because the
                   proceeds were either held by the PVO or foreign buyers outside normal
                   banking channels or were commingled with multiple foreign entities in joint
                   accounts. If FAS believes that requiring such accounts – as provided for in
                   the agency’s current regulations – conflicts with DR 3015, then the agency
                   should seek an exception as noted above.

                   To reach management decision, FAS officials need to provide us with a
                   time-phased plan that will prevent reoccurrences of these banking-related
                   problems in foreign countries. If FAS officials believe that it is necessary to
                   obtain an exception to DR 3015 and OMB Circular A-110 in order to require
                   this, then the response should include the agency’s plans to accomplish this.

Recommendation 9

                   Establish agency policies and procedures to direct FAS staff in initiating
                   recovery actions or claims in accordance with CCC regulations against
                   cooperating sponsors at fault in losses of commodities or monetization
                   proceeds.
USDA/OIG-A/07016-1-At                                                                     Page 29
                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS agrees with this recommendation. FAS developed and
                        approved such procedures for the claims process in
                        December 2005. Training on these approved policies and
                        procedures will be provided to all staff members during FY 2006.

                    OIG Position. We agree with the proposed current action. To reach a
                    management decision, FAS needs to provide us with a copy of the specified
                    policies and procedures.

Recommendation 10

                    Fully implement the performance-based review system and apply it to
                    Winrock and all other PVOs to determine whether the PVOs’ prior
                    performance justifies the award of new food aid agreements. Document the
                    review process and maintain the documentation for audit review.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS will continue to include summaries of past performance in its
                        closeout letters. FAS may be able to use this objective in looking
                        at the PVOs’ past performance. FAS will identify problems
                        during program implementation to allow PVOs to correct any
                        problems. An “issues letter” has been created to serve as an
                        interim notification to PVOs of problems known by USDA. The
                        issues letter will notify the PVO of problems and provide
                        suggestions for rectifying the problems. This interim step in the
                        review process will precede the closeout letter. If, after repeated
                        notification efforts, a PVO is neither responsive nor takes
                        corrective action in response to problems raised in the issues
                        letter, FAS will document the situation and consider any new
                        proposal from that PVO in light of the unresolved past issues.
                        Effective immediately, a copy of each letter will be placed in the
                        applicable program folder along with a master copy for future
                        reference.

                    OIG Position. In March 2002, FAS informed OIG that it had instituted a
                    new performance-based review as part of the approval process for all PVO
                    food aid proposals. The review would assess a PVO’s demonstrated
                    capabilities and track record in managing USDA food aid programs.
                    Organizations who failed to provide required documents and/or maintain
                    sufficient transparency would receive low performance ratings that decreased

USDA/OIG-A/07016-1-At                                                                     Page 30
                    their chances of receiving additional grants. However, our current audit
                    revealed that the review system did not function as designed in the case of
                    Winrock.

                    We accept management decision on the current recommendation based on
                    FAS’ use of the new “issues letter” to strengthen its performance review
                    process by documenting problems with PVOs’ performance and providing
                    notice to PVOs that unresolved issues may impact the award of future
                    agreements.

Recommendation 11

                    Verify that PCI obtained its proper share of grant funds and accrued interest
                    from the commingled bank account, and accurately reported these funds to
                    FAS.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS agrees with this recommendation. Before the end of
                        FY 2006, FAS will meet with PCI and confirm that the proper
                        share of proceeds and interest was allocated to the USDA grant.

                    OIG Position. We agree with the management decision.

Recommendation 12

                    Conduct a detailed review of Winrock’s monetization program and
                    administrative expenses for the FY 1998 Angola FFP agreement, and recover
                    from Winrock any misused or unaccounted funds, potentially totaling as
                    much as $1,402,289.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS has reviewed the agreement, records, and financial reports
                        related to Winrock’s FY 1998 monetization program in Angola,
                        and accounted for all of the funds. In short, although the buyer
                        breached its sales contract with Winrock by not paying funds to
                        Winrock, the buyer did pay much of the proceeds directly to
                        recipient agencies in kwanza. These recipient agencies have
                        submitted validating reports. The rest of the funds were lost due to
                        a devaluation of the kwanza; these funds never were paid to
                        Winrock. * * *



USDA/OIG-A/07016-1-At                                                                      Page 31
                           1. FAS found no evidence that having official recognition
                              from the Angolan government would have ensured that
                              Winrock received payment from the buyer. FAS has
                              reason to believe that Winrock’s situation is largely a case
                              of nonperformance on the part of the buyer. * * *

                           2. FAS agrees that Winrock was slow in reporting. * * *
                              However, while slow reporting, or the lack thereof, could
                              be considered a technical violation of the agreement and
                              even poor performance on the part of the PVO, it is not a
                              basis for a claim.

                           3. FAS agrees that a portion of the proceeds was lost due to
                              devaluation. In order for the * * * CCC to initiate a claim
                              as a result of a failure by a PVO to carry out a provision of
                              the agreement, CCC must have suffered a loss. In this
                              instance, Winrock’s loss of proceeds was due to
                              devaluation and non-performance by the buyer, not to any
                              violation that led to financial damage to CCC. * * * FAS
                              found that Winrock exercised reasonable judgment in
                              guarding the program funds in this situation and has not
                              found evidence of negligence or omission. Angola is a
                              difficult country to work in and was in the middle of a
                              civil war at the time of the program. * * *

                               *       *      *       *      *       *      *       *

                        FAS is satisfied with Winrock’s multiple legal attempts to get the
                        money and has received documentation verifying these efforts.
                        * * * Winrock tried to retrieve the funds and did eventually notify
                        USDA.

                   OIG Position. We will not be able to agree with the agency’s position on
                   this recommendation because it does not take into account the fact that
                   Winrock: (1) misrepresented itself as a viable agent capable of carrying out
                   its program in Angola when it was not; (2) mismanaged its grant operations
                   there; (3) repeatedly violated CCC regulations and the terms of its
                   agreement; and (4) did not timely report to FAS in accordance with OMB
                   regulations when it encountered major problems that prevented the
                   implementation of its agreement.

                   Civil war has been the norm in Angola since its independence from Portugal
                   in 1975. A peace accord was reached between the Government and the
                   National Union for the Total Independence of Angola in 1994. A national
                   unity Government was installed in April of 1997, but serious fighting

USDA/OIG-A/07016-1-At                                                                     Page 32
                                   resumed in late 1998. 28 Thus, the environment in Angola was unstable and
                                   conditions for investment were not ideal.

                                   When Winrock signed its food aid agreement with CCC in August of
                                   1998, its management recognized the unstable conditions in Angola and
                                   stated in its agreement that because of the danger of devaluation of the local
                                   Angolan currency, Winrock would not at any one time have in its possession
                                   more than one month’s worth of spending needs in the local currency
                                   (kwanza).

                                   In its November 1998 commodity contract with Tondo Limitada, Winrock
                                   agreed to accept 43 percent of the proceeds in U.S. dollars, and 57 percent in
                                   the local currency (kwanza). Thus, in spite of its concerns about local
                                   currency devaluation, Winrock agreed to accept the majority of the
                                   monetization proceeds in kwanza. Winrock also agreed to let the buyer make
                                   installment payments for the commodities. (Other PVOs OIG reviewed were
                                   careful to obtain monetization proceeds from foreign buyers prior to
                                   releasing the commodities.)

                                   The fact that Winrock could not obtain recognition from the Angolan
                                   Government was central to its failure to successfully implement its
                                   agreement. Without recognition, Winrock could not open a local bank
                                   account to deposit payments from Tondo Limitada or make routine program
                                   disbursements. Winrock allowed Tondo Limitada to keep the monetization
                                   proceeds obtained from the sale of the commodities and make disbursements
                                   on Winrock’s behalf for program activities. The lack of Government
                                   recognition also prevented Winrock from renting office space and hiring
                                   local staff. Therefore, Winrock relied on its subrecipient agency, World
                                   Vision. World Vision was already established in Angola and had a good
                                   relationship with the Government. Even though Winrock was not itself
                                   recognized by the Government, it understood the importance of Government
                                   recognition. Winrock used Government recognition as selection criteria for
                                   choosing subrecipient agencies to implement its programs.

                                   After the May/June 1999 currency devaluation, Winrock and Tondo
                                   Limitada disagreed on the currency exchange rate, and Tondo Limitada
                                   defaulted on its payments. Once again, because of its lack of recognition by
                                   the Angolan Government, Winrock soon exhausted its efforts to recover any
                                   money from Tondo Limitada in the Angolan courts.

                                   Finally, in violation of regulations 29 requiring Winrock to notify FAS of
                                   material problems impairing its ability to meet the objectives of its grant,
                                   Winrock did not notify FAS of its predicament, or the risk of loss of the sales
28
  Central Intelligence Agency, The World Factbook—Angola.
29
  OMB Circular A-110, “Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations.”

USDA/OIG-A/07016-1-At                                                                                                                 Page 33
                    proceeds after Winrock ceded control to Tondo Limitada. In fact, Winrock
                    did not provide FAS information about its agreement failure until FAS
                    requested the information nearly 2 years later. Had Winrock notified FAS of
                    its inability to obtain the Angolan Government’s recognition and establish a
                    local bank account, FAS could have transferred the agreement to Winrock’s
                    subrecipient, World Vision, and possibly mitigated some of the losses of the
                    monetization proceeds.

                    Because of Winrock’s apparent negligence, disregard of its agreement terms,
                    and repeated violations of Federal regulations, OIG continues to believe that
                    FAS should recover the contract value of the lost monetization proceeds.

                    To reach a management decision, FAS officials need to provide us with a
                    response in which they either agree to pursue collection from Winrock, or
                    provide the agency’s justification for not pursuing any collection against
                    Winrock in light of the facts presented above. Also, for any monetary
                    amounts determined to be collectible, FAS needs to provide a copy of the bill
                    for collection sent to Winrock.

Recommendation 13

                    Refer Winrock’s FY 1997 ALFALFA I and FY 1999 ALFALFA II
                    agreements to FAS’ Compliance Review Staff for a detailed review to:

                        •   obtain a copy of Deloitte Touche Tohmatsu’s April 2000 audit report
                            and assess the extent of monetary losses related to fraudulent
                            activities,

                        •   vouch claimed project expenses to source documents,

                        •   determine the allowability of the $2,651,413 in expenses claimed by
                            Winrock for the ALFALFA II agreement, and

                        •   ensure payroll taxes and social security contributions were remitted
                            to the host country government.

                   Then seek recovery from Winrock for any claimed expenses determined to be
                   unallowable according to the agreements.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        By the end of FY 2006, CRS will conduct a review of Winrock’s
                        FY 1997 and FY 1999 agreements. Following this review, FAS
                        will seek recovery of any funds as appropriate.

USDA/OIG-A/07016-1-At                                                                    Page 34
                    OIG Position. To achieve a management decision on the recommendation,
                    we request that FAS provide a detailed report which: (1) indicates that a
                    substantive review (supported by documentation, analytical evidence, etc.)
                    was performed; (2) documents the criteria used to determine the allowability
                    of the $2,651,413 in expenses claimed by Winrock for the ALFALFA
                    II agreement; (3) documents that payroll taxes and social security
                    contributions due to the host country government were paid; and
                    (4) documents the criteria used by FAS to determine whether FAS will seek
                    recovery of monetary losses due to fraud and/or claimed expenses not
                    allowed by the agreements. Also, for any monetary amounts determined to
                    be collectible, FAS needs to provide a copy of the bill for collection sent to
                    Winrock.

Recommendation 14

                    Conduct a detailed review of Winrock’s monetization program and
                    administrative expenses under the FY 1999 FFP agreement in Ivory Coast
                    and recover from Winrock any misused or unaccounted funds, potentially
                    totaling $773,587.

                    Agency Response. In its January 18, 2006, response, the agency stated
                    that:

                        FAS agrees with this recommendation. By the end of
                        FY 2006, CRS will conduct a detailed review of Winrock’s Ivory
                        Coast program. FAS will seek to recover any unaccounted for or
                        misused funds.

                    OIG Position. To achieve a management decision on the recommendation,
                    we request that FAS provide a detailed report which: (1) indicates that a
                    substantive review (supported by documentation, analytical evidence, etc.)
                    was performed and (2) documents the criteria used to determine whether
                    FAS will seek recovery of the $773,587 in unaccounted for or misused funds.
                    If FAS agrees to collect an amount from Winrock, FAS needs to provide a
                    bill for collection against Winrock or other documents attesting that an
                    accounts receivable has been established.

Recommendation 15

                    Closely monitor all active Winrock agreements,                including    the
                    FY 2002 agreement in Indonesia, until closure is achieved.




USDA/OIG-A/07016-1-At                                                                     Page 35
                   Agency Response. In its January 18, 2006, response, the agency stated
                   that:

                        FAS agrees with this recommendation. Effective immediately, all
                        financial and semiannual reports received from Winrock under the
                        FY 2002 agreement will be reviewed within 45 days of receipt.

                   OIG Position. We agree with the management decision.




USDA/OIG-A/07016-1-At                                                                  Page 36
General Comments
                                      During FYs 2002 and 2003, FAS awarded food aid grant agreements to
                                      108 PVOs and other cooperating sponsors that conducted grant operations in
                                      169 foreign countries without screening them for connections to terrorists or
                                      terrorist organizations. 30 These grantees, subsequently, provided grant funds
                                      to other PVOs, recipient organizations, and subrecipients in foreign countries
                                      who likewise had not been screened for connections to terrorist
                                      organizations. 31 Because FAS evaluation division staff was not cognizant of
                                      its responsibilities according to U.S. counterterrorism policies, laws, and
                                      regulations, they had not implemented U.S. Government policies for
                                      screening PVOs, foreign country recipients, and subrecipients for
                                      connections to terrorism. As a result, $1.3 billion in commodities and
                                      administrative funding was at risk of financing the activities of undetected
                                      terrorist organizations.

                                      Since the events of September 11, 2001, the administration has taken steps to
                                      disrupt the financial support networks of terrorists and terrorist organizations,
                                      as well as their subsidiaries, front organizations, agents, and associates. 32
                                      Those steps have included measures to prevent grant funds from being
                                      diverted to individuals or entities that have been placed on the Department of
                                      Treasury’s (Treasury) list of terrorists and terrorist entities. However, vetting
                                      all PVOs, foreign recipients, and subrecipients represents a formidable
                                      challenge for FAS. For the past 5 years, USAID—another agency facing a
                                      similar challenge—has been working to develop counterterrorism procedures
                                      for the PVO community.

                                      During our fieldwork, we asked FAS evaluation division staff if they had
                                      instituted counterterrorism measures to screen PVOs applying for food aid
                                      grants, as well as their recipient and subrecipient organizations operating
                                      in-country. We learned that they were not aware of the recent progress made
                                      by Treasury and USAID in the area of counterterrorism and had not
                                      developed any counterterrorism measures. It is particularly important that
                                      FAS take action to ensure that food aid grant commodities and administrative
                                      funding are not diverted for use by terrorist organizations; as Finding 2 has
                                      demonstrated, food aid funds can be vulnerable to diversion for various
                                      purposes if FAS does not maintain sufficient oversight.



30
   We identified 169 countries from data provided by FAS in exhibits B and C—84 in FY 2002 and 85 in FY 2003. Some PVOs received grants in both
years; also, there is a certain amount of overlap in that PVOs operate both individually within a specific country and regionally, as part of a consortium
effort with other non-profit organizations.
31
   A recipient agent can be either a Government supported organization or a private entity located in a foreign country that receives donated commodities
or commodity sale proceeds from an FAS grantee for the purpose of implementing grant program activities. These in-country recipients further distribute
commodities and funding to other subrecipient groups who assist in conducting grant program operations and activities.
32
   Presidential Executive Order 13224 and Title 18, United States Code, Section 2339, “Terrorism.”

USDA/OIG-A/07016-1-At                                                                                                                          Page 37
                   In response to our concerns, USAID invited FAS officials to attend meetings
                   of the National Security Council Taskforce in August and
                   October 2004. After much discussion among the Federal agency officials
                   attending the meetings, OMB determined that counterterrorism vetting
                   requirements for nongovernmental organizations would create human
                   resource and system infrastructure issues for the agencies. Additional funding
                   to address these issues would not be available in FY 2005. As an alternative
                   to completing the National Security Presidential Directive, the taskforce
                   agreed on a proposal involving memoranda of understanding among the
                   impacted Federal agencies, and pilot vetting programs.

                   In November 2004, FAS officials met with USAID officials to discuss the
                   overall counterterrorism initiative and how the two agencies could most
                   effectively and efficiently work together to screen nongovernmental
                   organizations. At that meeting, FAS expressed interest in using USAID’s
                   database for vetting USDA-funded nongovernmental organizations.

                   FAS should continue working with USAID to develop a workable interim
                   solution for vetting USDA-funded organizations for connections to terrorist
                   groups. FAS should also continue participating in the National Security
                   Council Taskforce efforts to develop a National Security Presidential
                   Directive, and implement the directive as soon as program funds are made
                   available.




USDA/OIG-A/07016-1-At                                                                   Page 38
Scope and Methodology
                   For FYs 2002 and 2003, FAS awarded 209 grant agreements to
                   108 cooperating sponsors, including PVOs, that provided 3 million MT of
                   commodities valued at $870 million. CCC provided $416 million in
                   transportation costs to ship the commodities to recipient countries, and
                   $49 million in administrative funds to assist cooperating sponsors in
                   implementing their programs. Thus, the total cost of providing the 209 grant
                   agreements was $1.3 billion. (See exhibits B and C.) During our fieldwork at
                   FAS Headquarters, we selected a judgmental sample of eight PVOs. The
                   sample was structured to include a mix of:

                        •   large and small PVOs,

                        •   agreements with large amounts of either administrative funds or
                            donated commodities,

                        •   one PVO new to the FAS grant program (Jesus Alive Ministries
                            International),

                        •   food aid grant programs for direct distribution of commodities to
                            needy recipients, and

                        •   food aid grant programs providing for monetization or sale of
                            CCC-donated commodities to obtain proceeds to be used in
                            implementing educational and agricultural infrastructure projects.

                   We selected three of the eight PVOs due to allegations raised in complaints to
                   OIG.

                   We conducted fieldwork at the FAS U.S. Headquarters in Washington, D.C.,
                   between January and May 2004. We then performed field reviews at the U.S.
                   Headquarters of three of the eight PVOs, including Cooperative for
                   Assistance and Relief Everywhere (CARE), Atlanta, Georgia; Food for the
                   Poor, Deerfield Beach, Florida; and Winrock, Morrilton, Arkansas. Finally,
                   we traveled to Guatemala, El Salvador, and Honduras in June and
                   July 2004 to review the field operations of four of the eight PVOs
                   implementing FFP, 416(b), and FFE grant programs in those countries. PVOs
                   visited included CARE, Food for the Poor, PCI, and the Catholic Relief
                   Service.




USDA/OIG-A/07016-1-At                                                                    Page 39
                   To accomplish our audit objectives we:

                        •   interviewed responsible officials of the FAS Export Credits staff,

                        •   reviewed CCC regulations for the food aid programs,

                        •   developed a working knowledge of FAS PPDED and E&SPB
                            procedures for reviewing grant proposals and awarding food aid
                            grants,

                        •   reviewed E&SPB procedures for tracking and monitoring active
                            grant agreement operations and performing final closeout reviews of
                            grant programs,

                        •   reviewed FAS food aid agreement files of PVOs and cooperating
                            sponsors, and

                        •   reviewed FAS procedures to identify and prevent terrorist
                            organizations from obtaining USDA program assistance.

                   At the U.S. Headquarters of PVOs, we reconciled PVO expenditures to
                   logistics and monetization reports submitted to PPDED, and vouched the
                   PVO grant expenditures to original invoices and accounting details
                   supporting those expenditures.

                   During our field visits to the four PVOs in Central America, we:

                        •   reviewed accounting records of program expenditures at the in-
                            country offices of the PVOs;

                        •   interviewed PVO management officials to learn how the food aid
                            programs were carried out in-country;

                        •   visited program sites in both urban and remote areas to observe
                            program operations and accomplishments, and commodity
                            warehousing facilities;

                        •   interviewed foreign recipient and subrecipient organizations working
                            with the PVOs; and

                        •   interviewed program beneficiaries and recipients.

                   The audit was conducted in accordance with generally accepted government
                   auditing standards.


USDA/OIG-A/07016-1-At                                                                     Page 40
Exhibit A – Summary of Monetary Results
                                                                          Exhibit A – Page 1 of 1



 Finding
                            Description                 Amount             Category
 Number
           Winrock did not use monetization funds
           obtained from selling CCC-donated          $1,402,289   Unsupported Costs
   2
           commodities to implement its Angola                     Recovery Recommended
           agreement projects.
           Winrock did not use monetization funds
           obtained from selling CCC-donated           $773,587    Unsupported Costs
   2
           commodities to implement its Ivory Coast                Recovery Recommended
           agreement projects.

              Total Monetary Results                  $2,175,876




USDA/OIG-A/07016-1-At                                                                  Page 41
Exhibit B – Scope of Food Aid Programs – FY 2002
                                                                                                               Exhibit B – Page 1 of 1




                                                                                               Section
                                                                             FFP               416(b) *            Total
     SCOPE OF FOOD AID PROGRAMS IN 2002 * *

Total Number of Agreements Signed                                                        29               92               121
   Number of PVO Agreements                                                              28               40                68
   Number of Government Agreements                                                        1                8                  9
   Number of World Food Program (WFP) Agreements                                          0               44                 44

Number of Cooperating Sponsors                                                          21                26                47
Number of Countries                                                                     25                59                84
Total Approved MT                                                                  250,645         1,640,595         1,891,240
  MT Monetized                                                                     194,225         1,011,335         1,205,560
   MT Direct Distribution                                                           56,420          629,260            685,680

Value of Commodities                                                         $80,579,830       $409,773,870 $490,353,700
Total Transportation Costs                                                    36,619,462        221,909,365 258,528,827
Total Administrative/Program Funds From CCC                                     6,822,400         8,964,968   15,787,368

Total Cost of Agreements                                                     $124,021,692       $640,648,203 $764,669,895

* Section 416 (b) numbers include programming for Global FFE.
* * Does not include concessional sales of food to foreign governments under Public Law 480.




USDA/OIG-A/07016-1-At                                                                                                   Page 42
Exhibit C – Scope of Food Aid Programs – FY 2003
                                                                                                              Exhibit C– Page 1 of 1



                                                                                 Section            McGovern-
                                                             FFP                 416 (b)              Dole           Total
    SCOPE OF FOOD AID PROGRAMS
              IN 2003 * *

Total Number of Agreements Signed                                         38                   29            21               88
   Number of PVO Agreements                                               22                   17             8               47
   Number of Government Agreements                                        15                    4             0               19
   Number of WFP Agreements                                                1                    8            13               22

Number of Cooperating Sponsors                                            34                   18             9               61
Number of Countries                                                       31                   34            20               85
Total Approved MT                                                  719,950             242,140          119,320       1,081,410
  MT Monetized                                                     688,570             190,290           34,660         913,520
  MT Direct Distribution                                            31,380              51,850           84,660         167,890

Value of Commodities                                         $164,955,177        $171,181,447        $43,117,019 $379,253,643
Total Transportation Costs                                      81,890,419          55,561,047        20,289,717   157,741,183
Total Administrative/Program Funds From CCC                      3,406,215                   0        29,804,868    33,211,083

Total Cost of Agreements                                     $250,251,811        $226,742,494        $93,211,604 $570,205,909

* * Does not include concessional sales of food to foreign governments under Public Law 480.




USDA/OIG-A/07016-1-At                                                                                                    Page 43
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 11




USDA/OIG-A/07016-1-At                      Page 44
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 11




USDA/OIG-A/07016-1-At                      Page 45
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 11




USDA/OIG-A/07016-1-At                      Page 46
Exhibit D – Agency Response
                              Exhibit D – Page 4 of 11




USDA/OIG-A/07016-1-At                      Page 47
Exhibit D – Agency Response
                              Exhibit D – Page 5 of 11




USDA/OIG-A/07016-1-At                      Page 48
Exhibit D – Agency Response
                              Exhibit D – Page 6 of 11




USDA/OIG-A/07016-1-At                      Page 49
Exhibit D – Agency Response
                              Exhibit D – Page 7 of 11




USDA/OIG-A/07016-1-At                      Page 50
Exhibit D – Agency Response
                              Exhibit D – Page 8 of 11




USDA/OIG-A/07016-1-At                      Page 51
Exhibit D – Agency Response
                              Exhibit D – Page 9 of 11




USDA/OIG-A/07016-1-At                      Page 52
Exhibit D – Agency Response
                              Exhibit D – Page 10 of 11




USDA/OIG-A/07016-1-At                       Page 53
Exhibit D – Agency Response
                              Exhibit D – Page 11 of 11




USDA/OIG-A/07016-1-At                       Page 54
Informational copies of this report have been distributed to:

Administrator, FAS (4)
 ATTN: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
GAO-IAT (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
